<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2014

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                              FIRST SESSION
                                ________
       SUBCOMMITTEE ON FINANCIAL SERVICES AND GENERAL GOVERNMENT 
                             APPROPRIATIONS
                    ANDER CRENSHAW, Florida, Chairman
 JO BONNER, Alabama                 JOSE E. SERRANO, New York
 MARIO DIAZ-BALART, Florida         MIKE QUIGLEY, Illinois
 TOM GRAVES, Georgia                MARCY KAPTUR, Ohio
 KEVIN YODER, Kansas                ED PASTOR, Arizona        
 STEVE WOMACK, Arkansas             
 JAIME HERRERA BEUTLER, Washington  
                                    

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              John Martens, Winnie Chang, Kelly Hitchcock,
                     Ariana Sarar, and Amy Cushing,
                           Subcommittee Staff

                                ________

                                 PART 5
                                                                   Page
 Supreme Court....................................................    1
 District of Columbia Courts and Court Services and Offender 
Supervision Agency for the District of Columbia...................   31
 The Judiciary....................................................  107

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                 Part 5

   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2014
                                                                      ?


   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2014

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                              FIRST SESSION

                                ________

       SUBCOMMITTEE ON FINANCIAL SERVICES AND GENERAL GOVERNMENT 
                             APPROPRIATIONS
                    ANDER CRENSHAW, Florida, Chairman
 JO BONNER, Alabama                 JOSE E. SERRANO, New York
 MARIO DIAZ-BALART, Florida         MIKE QUIGLEY, Illinois
 TOM GRAVES, Georgia                MARCY KAPTUR, Ohio
 KEVIN YODER, Kansas                ED PASTOR, Arizona          
 STEVE WOMACK, Arkansas             
 JAIME HERRERA BEUTLER, Washington  
                                    

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              John Martens, Winnie Chang, Kelly Hitchcock,
                     Ariana Sarar, and Amy Cushing,
                           Subcommittee Staff

                                ________

                                 PART 5
                                                                   Page
 Supreme Court....................................................    1
 District of Columbia Courts and Court Services and Offender 
Supervision Agency for the District of Columbia...................   31
 The Judiciary....................................................  107

                                   S

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 80-953                     WASHINGTON : 2013

                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\      NITA M. LOWEY, New York
 FRANK R. WOLF, Virginia            MARCY KAPTUR, Ohio
 JACK KINGSTON, Georgia             PETER J. VISCLOSKY, Indiana
 RODNEY P. FRELINGHUYSEN, New JerseyJOSE E. SERRANO, New York
 TOM LATHAM, Iowa                   ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama        JAMES P. MORAN, Virginia
 KAY GRANGER, Texas                 ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho          DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas        LUCILLE ROYBAL-ALLARD, California
 ANDER CRENSHAW, Florida            SAM FARR, California
 JOHN R. CARTER, Texas              CHAKA FATTAH, Pennsylvania
 RODNEY ALEXANDER, Louisiana        SANFORD D. BISHOP, Jr., Georgia
 KEN CALVERT, California            BARBARA LEE, California
 JO BONNER, Alabama                 ADAM B. SCHIFF, California
 TOM COLE, Oklahoma                 MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida         BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania      TIM RYAN, Ohio
 TOM GRAVES, Georgia                DEBBIE WASSERMAN SCHULTZ, Florida
 KEVIN YODER, Kansas                HENRY CUELLAR, Texas
 STEVE WOMACK, Arkansas             CHELLIE PINGREE, Maine
 ALAN NUNNELEE, Mississippi         MIKE QUIGLEY, Illinois
 JEFF FORTENBERRY, Nebraska         WILLIAM L. OWENS, New York          
 THOMAS J. ROONEY, Florida          
 CHARLES J. FLEISCHMANN, Tennessee  
 JAIME HERRERA BEUTLER, Washington  
 DAVID P. JOYCE, Ohio               
 DAVID G. VALADAO, California       
 ANDY HARRIS, Maryland              
   
 ----------
 <SUP>1}}</SUP>Chairman Emeritus    
                                    
               William E. Smith, Clerk and Staff Director

                                  (ii)


   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2014

                              ----------                              

                                          Thursday, March 14, 2013.

                             SUPREME COURT

                               WITNESSES

HON. ANTHONY KENNEDY, ASSOCIATE JUSTICE, SUPREME COURT OF THE UNITED 
    STATES
HON. STEPHEN BREYER, ASSOCIATE JUSTICE, SUPREME COURT OF THE UNITED 
    STATES
JEFFREY MINEAR, COUNSELOR TO THE CHIEF JUSTICE
PAMELA TALKIN, MARSHAL OF THE COURT
KATHY ARBERG, PUBLIC INFORMATION OFFICER
GARY KEMP, DEPUTY CLERK
KEVIN CLINE, BUDGET MANAGER
    Mr. Crenshaw. The meeting will come to order. Good morning 
to Justice Kennedy and Justice Breyer. We thank you for being 
here today. You have both testified before this committee 
before, and you are back. I always wonder how you decide who 
comes before the subcommittee, whether you volunteer, whether 
someone volunteers for you.
    Justice Kennedy. It is based on merit.
    Mr. Crenshaw. Based on merit. That sounds great. But 
whatever the reason is, we are glad you are here. We appreciate 
your willingness, and we always look forward to hearing from 
the Court. This is one of those rare occasions where we have 
two branches of government get together in the same room and 
talk. I think we all know that an independent judiciary that 
has the respect of the citizens is something that is very 
important to our country. The fact that you decide these 
controversial questions is something that our Founding Fathers 
thought was really important. And while your budget is not as 
big as some of the other Federal agencies, you have one of the 
most important roles to play, and we appreciate that. Outside 
of the confirmation process, this is probably one of the few 
times that the two branches of government get together and 
interact. In my opinion, it is one of the most important things 
we can do, and recognize and respect each other.
    I think you all know that the Federal Government is 
continuing to operate in an environment of scarce resources. I 
want to thank you all for the efforts that you have made to be 
more efficient, to contain costs as best you can. The overall 
budget request this year I understand is $86.5 million. That is 
$3 million over the current CR level, but I notice that you 
have implemented almost $2.2 million of savings. And that is 
important. Most of the increases that I see in your budget is 
going to fund restoration activities in the building's north 
and south facade.
    So we look forward to hearing your testimony this morning. 
We look forward to hearing you talk about the resources that 
you need to carry out your constitutional responsibilities. We 
would welcome any thoughts you have about the court system in 
general. And we want to work to make sure that the Court has 
the resources it needs. So we appreciate your efforts, again, 
to contain costs in these difficult times.
    And so now before I ask for your testimony, I would like to 
ask my ranking member, Mr. Serrano, for any comments that he 
might have.
    Mr. Serrano. Thank you so much. And good morning. I have 
had the privilege of having you before the subcommittee both as 
chairman of the committee, now as ranking member. And we didn't 
get to have you before us last year, so I didn't get to ask you 
the question that is always on my mind, which is whether 
someone born in Puerto Rico can serve as President of the 
United States. And I realize, not being a lawyer, that I 
probably first have to get elected so it can become an issue, 
and I was trying to avoid that issue. So the question is out 
there, if you wish during your testimony to render an opinion. 
I think it will be historic. And I think I got one last time, 
but I am not going to ask again.
    Thank you, Mr. Chairman. I would also like to warmly 
welcome you both back. As I have said in past years, this is 
one of the rare opportunities for our two branches to interact. 
Because of this, our questions sometimes range beyond strict 
appropriations issues affecting only the Supreme Court. As our 
Nation's highest court, many of us look to you for important 
insights into issues affecting the Federal Judiciary as a 
whole. That is certainly the case today. As a result of 
sequestration, the Federal Judiciary must implement significant 
budget cuts that will affect all aspects of our system of 
justice.
    Chairman Crenshaw and I recently received letters from the 
Administrative Office of the U.S. Courts that detail the impact 
of sequestration on the Federal Judiciary. To say the least, 
the impact is severe. Many Federal courts will be unable to 
operate at the same level of efficiency, and many employees may 
be furloughed or laid off. There will be less supervision and 
programming for criminal offenders, the very things that help 
us prevent people coming back into prison. And our court 
security will be lessened, even as our Federal courts continue 
to deal with trials that pose significant security issues.
    I am particularly worried about our Federal Defender 
program, where layoffs have occurred prior to sequestration, 
and show no signs of abating at this point. Additional funding 
reductions caused by the sequester will undoubtedly force 
further difficult choices, and undermine the ability of our 
Federal public defenders to do their utmost to help their 
clients.
    There are many concerns that we have, and these are some of 
the questions that we will be asking today. So we welcome you 
back. And it is, Chairman Crenshaw, a unique situation. This is 
one of those hearings that I always look forward to. And as you 
can see by that camera, the whole world is watching us. So we 
will have what I know will be a good hearing.
    Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you, Mr. Serrano. I would now like to 
recognize Justice Kennedy for your opening statement. And if 
you could keep that within the 5-minute so we will have some 
time for questions, and certainly submit your written copy for 
the record.
    Justice Kennedy. Thank you, Mr. Chairman, Congressman 
Serrano, members of the committee. Thank you very much for 
your--is this on?
    Mr. Womack. Probably not.
    Justice Kennedy. It is green. Is it on? Thank you. Justice 
Breyer joins me in bringing greetings from the Chief Justice 
and our colleagues. We have with us the principal statutory 
officers of our court. Seated in order, Jeff Minear, Counselor 
to the Chief Justice; Pamela Talkin, Marshal of the Court; 
Kevin Cline of our Budget and Personnel Office, who has worked 
very closely with your committee. And the communication between 
your committee and our budget people is extremely valuable. And 
Kathy Arberg, our Public Information Officer. And Gary Kemp, 
our Deputy Clerk.
    As you both indicated, Mr. Chairman and Congressman 
Serrano, this is an interesting constitutional dynamic here 
this morning. We talk often of separation of powers and checks 
and balances, and we use those words interchangeably. Actually, 
they have a different thrust. Separation of powers means that 
each branch of the government has powers of its own that it can 
exercise without--and must exercise without interference from 
the other branches. Checks and balances means that you can not 
have completely separated departments. They have to work 
together. And this is an example of checks and balances.
    We come here to indicate that as a separate branch of the 
government, we do think our budget request is of a high 
priority. Judges by nature and by tradition are very, very 
careful in the expenditure of the public moneys. We are good 
stewards of the public treasury. That does not mean that there 
are not instances where the Congress can point out that an 
expenditure might be too large or unnecessary. But over the 
last years, especially over the last few years, Congressman 
Serrano, we have been extremely careful to present you with a 
minimum budget.
    As you indicated, Mr. Chairman, the budget for the entire 
third branch of the government is .2 percent of the Federal 
budget, .2 percent. And our budget is .002 percent. Our budget, 
as you indicated, is $74-plus million for the operations of the 
Court, which we will talk about. There is an additional $11 
million for buildings and grounds. And we are very proud of our 
budget for the operations of the Court is a 3 percent reduction 
over last year. In looking at the reason for that 3 percent 
reduction, it looks to me like that might not be one time. I am 
not sure we can do it for you the next time. But we are 
committed to try. Because we think that the courts must always 
set an example for prudent and proper respect for the people of 
the United States and for the way in which we spend their 
money.
    As you indicated, Mr. Chairman and Mr. Serrano, the 
Administrative Office of the Courts' budget, which is $7 
billion, is of tremendous importance to the functioning of the 
entire judiciary. The Supreme Court has cases that the public 
is very interested in, but on a routine basis we are charged 
with ensuring that the justice system as a whole is efficient, 
fair, accessible. And most of our time is spent in reviewing 
cases that are decided in the routine course of the 
administration of the criminal and civil laws of this country.
    When the budget of $7 billion for the courts comes before 
you, I believe next week, it is important to bear a few things 
in mind. Number one, Congressman Serrano, one-seventh of that 
budget is for Defender Services, one-seventh of the Federal 
Judiciary budget is for the country. This is for the Defender 
Services, one-seventh of our budget. Then we have a huge amount 
of our budget, as you have indicated--I am talking about the 
entire Federal courts now, not the Supreme Court--a very 
substantial part of that budget is for supervised release of 
those who are in the criminal system and for pretrial 
sentencing reports. And this is absolutely urgent for the 
safety of society. Look, the Federal courts routinely, day in 
and day out, supervise more people than are in the Federal 
prison population. We supervise more than 200,000 criminal 
offenders, some of whom are very dangerous.
    And if the Congress thinks that because of some automatic 
cuts this has to be cut back, you are doing a few things. 
Number one, in my view, you are putting the public safety at 
risk. Number two, you are undercutting the ability of a 
separate branch of the government to perform its functions. I 
am sure that every agency, Mr. Chairman, that comes before you 
will give a special reason why you should leave their budget 
alone. You all have to go through this. But please consider 
that .2 percent of the Federal budget for an entire third 
branch of the constitutional government is more than 
reasonable. What is at stake here is the efficiency of the 
courts. And the courts are part of the capital infrastructure 
of the country. They are not only part of the constitutional 
structure to make the government work, they are part of the 
economic infrastructure and the social infrastructure. The rest 
of the world looks to the United States to see a judicial 
system that is fair, that is efficient, that is accessible. And 
it must have the necessary support and resources from the 
Congress of the United States.
    It is the same thing with respect to judicial compensation. 
The Congress has always been excellent in giving the resources 
that are necessary for the proper discharge of our duties. And 
we hope that that will continue when you hear and consider the 
request of the Administrative Office of the Courts next week. 
And with that, perhaps my colleague, Justice Breyer, has some 
opening remarks. Incidentally, Mr. Chairman, we are waiting for 
your case on the Puerto Rican Presidency to come to us----
    Mr. Serrano. You mean the United States Presidency.
    Justice Kennedy. But you also have to be 35 years old. Have 
you met that requirement? It is Article II, Section 1.
    Mr. Serrano. I may double that soon. It may come up 
someday. You may get someone born over there running. But thank 
you for your semi-opinion.
    [The statement of Justice Kennedy follows:]

    [GRAPHIC] [TIFF OMITTED] T0953A.001
    
    [GRAPHIC] [TIFF OMITTED] T0953A.002
    
    [GRAPHIC] [TIFF OMITTED] T0953A.003
    
    [GRAPHIC] [TIFF OMITTED] T0953A.004
    
    [GRAPHIC] [TIFF OMITTED] T0953A.005
    
    [GRAPHIC] [TIFF OMITTED] T0953A.006
    
    Mr. Crenshaw. Justice Breyer, do you have some comments you 
would like to make?
    Justice Breyer. Mr. Chairman, I agree with my colleague, 
Justice Kennedy.
    Mr. Serrano. Well done.
    Justice Breyer. I can't resist adding. I mean any lawyer 
always asks two questions, Mr. Serrano, Ranking Member. I would 
like to--and your question is could someone from Puerto Rico 
become President of the United States. I know many possible 
people from Puerto Rico who could perhaps be elected, and I 
modestly in this room will not say exactly who, but I would 
point out that lawyers always ask two questions. First, why? 
And the answer to that legal question, isn't Puerto Rico an 
important part of this country? Answer, yes. Second question--I 
won't answer it for you--second question, why not? And when I 
say why not, I don't hear any answer. There we are, I have 
answered with two questions.
    Mr. Serrano. Thank you, sir. I think you just made the 
front page of all the papers on the island, and in New York, 
too. Thank you.
    Mr. Crenshaw. Well, maybe, Mr. Serrano, maybe you could 
just run for President, and if nobody challenges that, that 
will be fine. And if they do, then these good gentlemen will be 
happy----
    Mr. Serrano. What is interesting, and I don't want to take 
much more time on this, because it becomes an issue when you 
have territories. But if you recall, the Senate, just to be 
sure, passed a resolution saying that John McCain could in fact 
serve as President, because he was born in the Panama Canal 
Zone, which technically is not part of a State, but it is a 
territory. And the Senate actually passed a resolution saying, 
yes, he can. I said, gee, I thought that would have to be the 
Court someday that would have to rule on that. But I am pretty 
sure, confident, and surely from this opinion, I mean----
    Justice Breyer. No, I have not given an opinion.
    Mr. Serrano. I understand. I understand. You have not given 
an opinion, and no one here would write that. But let me just 
say that my exploratory committee is coming together in the 
next half hour.
    Justice Kennedy. You know, the likely explanation for the 
provision in Article II, Section 1, of a natural born citizen 
and 35 years of age, was so that we would not invite European 
royalty to come and be the occupant of the White House. Number 
one, the President had to be 35 years old so it would not be an 
infant with a governor. And number two, born in the United 
States so it would not be European royalty. That is probably 
the reason. I was not there at the time.
    Mr. Crenshaw. Well, we will get back to that issue. Let me 
start out questions. We talked a little bit about the financial 
side. And obviously, that is what our committee does is 
appropriate money for the various agencies that we oversee. And 
the one thing that you talked about, Justice Kennedy, and one 
thing that I would applaud that you all have done as a Supreme 
Court, is try to be very judicious, very efficient with the use 
of the taxpayers' dollars. And it is on everybody's mind now 
because of the issue of sequestration, which as everyone knows, 
is kind of a Washington word for an across the board draconian-
type cuts that nobody probably thought was going to happen. It 
was set up to be a kind of a deterrent to make sure that 
Congress did its work to find additional savings. And the 
special committee that was set up to do that didn't find those 
savings. On the good side, over the past couple of years 
Congress has actually reduced spending. From 2010 to 2012, 
overall spending went down by $95 billion. And that is the 
first time that had happened I think since World War II. But I 
think one thing we all agree on, that is that if we are going 
to reduce spending, if we are going to make cuts to the budget, 
then a better way to do that is do that specifically.
    That is why we sit here as an Appropriations Committee. We 
hold hearings, we listen to testimony, we make tough choices, 
we set priorities, and sometimes we add money and sometimes we 
take away money. And regardless of how we feel about increasing 
or decreasing spending, we all agree I think there is a better 
way to do it than the so-called sequester.
    So we find ourselves in that situation. You are part of 
that. I think the reductions in the nondefense side are about 5 
percent; on the defense side it is about 8 percent over the 
remaining 7 months. And so my question is, and I think you have 
answered it to a certain extent, you already, it seems to me, 
are working as hard as you can to make sure that you are 
spending money efficiently. But I have to ask you, since we 
have this sequester and it kicked in on March 1, can you say 
just from the Supreme Court side, not from the broader, we will 
talk to some of the other administrative courts and their 
issues, but just from your standpoint in the Supreme Court, 
what kind of impact will that sequester have on you all? Does 
that mean you hear less cases, or you wear your robes for an 
additional year or two? I mean you got to save money somewhere. 
Tell us, number one, how that is going to impact your 
operations of the Supreme Court, and number two, do you think 
that the sequester will, maybe as you anticipated it--it seems 
like you do a good job--but do you think the fact that there is 
a sequester and you have to live under it, maybe it is a month, 
maybe it is a year, maybe it is 10 years, what will that do in 
terms of your overall planning to try to be more efficient and 
more effective? Could you touch on those two things?
    Justice Kennedy. If it is for any long term it will be 
inconsistent with the constitutional obligation of the Congress 
to fund the courts. We do not control our workload. Cases come 
to us. We don't go looking for cases. In the typical year, we 
have close to 9,000 petitions for certiorari, many of them from 
those who are convicted in the Federal criminal system, and 
also habeas corpus from the State criminal system. We can not 
control that. And we can not arbitrarily say, oh, we are going 
to only consider 6,000 and let the other ones just go by the 
board. We have no choice in that. Just like a district court 
has no choice in deciding how many criminal prosecutions it is 
going to allow, or how many civil cases it is going to allow. 
And if you force that choice, you are saying that the courts 
are not open, that the legal system is not accessible. And this 
is inconsistent with the rule of law.
    Now, the Judiciary can, our staff tells us, I think for a 
few months get by with some temporary furloughs or shorter work 
days for our staff. If you can find a way to give us a shorter 
workday, I would most appreciate it. But over the long term, 
particularly for the courts as a whole, it is simply 
unsustainable.
    Mr. Crenshaw. Justice Breyer.
    Justice Breyer. Well, I would add this. As you saw in 
Justice Kennedy's figures here in his prepared statement, in 
fiscal year two-twelve--2012, you know, our twenty-first 
century is confusing for me--in 2012 we asked for a reduction 
of 2.8 percent in the budget. Then we went up, but not by that 
much, in 2013. And now we are requesting a 3.0 percent 
reduction. So we have been through it pretty carefully, and we 
have reduced. And the way we really reduced, the heart of it I 
think, is we hired a few people who understood those computers. 
And they are smart. And they worked out a way to share all this 
computer stuff with other agencies. And the result is we have 
cut our costs a lot there. So if we were going to save money by 
say getting rid of them, our costs would go up. They wouldn't 
go down.
    Then you say, well, what do I do? I tell my children--I 
used to tell my children this, now I tell the school groups. I 
say how do I spend my day? I spend my day, I read. I read 
briefs. I read them and I read them. And then my law clerks 
help, but I have to sit at that word processor--and it is 
behind my desk--and I write. Now, I am there, I read and I 
write. I say to my son, if you do your homework really well you 
will get a job where you can do homework the whole rest of your 
life. So that is what is going on in that building. And we have 
some policemen who are there for security purposes who don't 
just protect us, but they protect the public. And then we have 
to keep the courtroom reasonably clean. And if you didn't keep 
it clean, it is not just us again who would suffer, even the 
litigants. If somebody comes into a courtroom and they see a 
column, and that column sort of has a hole in it, and the sort 
of inside is falling out over the floor, what do they think 
about justice in the United States? Those things are symbols. 
They don't have to be grand--ours is--but they do have to be 
kept up. And so when you look around and say what are we 
doing--and now we have a press office. And what the press 
office does is it tells people to try to communicate with the 
public what is going on. And they answer questions that 
reporters have so that people can know about us.
    What is there to cut? We go through, we cut some travel, we 
saved the money, as I say, with the computers, and we have 
managed to cut 3 percent. I think that is pretty good, 
actually. And there we are. Eighty-nine hundred petitions. You 
know, even if you said, no, we will only hear half, which would 
be wrong, in my opinion, you know, you wouldn't save any money. 
Because we are going to read them anyway.
    Mr. Crenshaw. I got you.
    Justice Kennedy. I might just say insofar as Justice Breyer 
indicated public awareness of what we are doing, when we accept 
a case, then briefs are filed. The briefs and the transcripts 
of the oral argument are put on our Web site at no charge. The 
American Bar Association does this for us. I was looking at the 
statistics yesterday, and I asked my clerks to guess how many 
downloads, not just hits, how many downloads were there last 
year of Supreme Court opinions and transcripts of oral 
arguments? And the answer, I was astounded myself, it is just 
under 70 million total downloads from the Supreme Court 
website. That is the education function that we are performing. 
We have to have technical staff that can perform this function. 
And again, as Justice Breyer indicated, the technology is 
working so fast that we are hoping there are cost savings, but 
it seems that the price of the equipment goes up all the time 
really over a 4-year cycle.
    Justice Breyer. Justice Kennedy was just in Sacramento, 
they dedicated a library to him. It is fabulous. Part of the 
work that we do is talking to school groups, as you do. You 
know, you talk to the public and you try to explain to them, 
you know, we are trying to do our job, and you try to explain 
to them what the job is. And people don't know. They don't 
understand. And you can give the same speech over and over and 
over. And everybody does that who is in government, who is in 
public life. And you try to communicate over and over and over. 
And if say a third of a million, or a million, or whatever it 
is if that many people a day visit that Web site, I say thank 
you. That can do so much more than I can do in a thousand 
speeches. So I wouldn't like to change that.
    Mr. Crenshaw. I got you. Well, thank you for that. And I 
guess the second part of my question, would a sequester really 
increase your intensity to find savings? It sounds to me like 
you are already on that wavelength regardless of the sequester. 
I mean it is strange, unusual for a Federal agency to come in 
and actually ask for less money one year than they did the last 
year. And I think you should be applauded for that. And while 
we recognize that a sequester, an additional 5 percent cut is 
going to have a negative impact, we appreciate the fact that it 
sounds to me like you are working every day to make sure, 
whether it is in technology or whether it is in your Web sites, 
making an effort to be as efficient as you can. So we applaud 
that and we thank you for that.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. Once again, thank you 
for being here before us. I want to ask you two questions at 
once. I know you can't comment on specifics, but have you heard 
about the effects of sequestration on the Federal Judiciary as 
a whole? Do you have particular concerns about the 
administration of our justice system under sequestration? And 
secondly, we are particularly concerned about the budget cuts 
to our Federal Defenders. At what point are we seriously 
impacting the provisions of effective counsel to indigent 
criminal defendants by cutting our budget so much? So in 
general can you tell us what you think the effect will be on 
the courts and in particular on this particular program?
    Justice Kennedy. Congressman Serrano, as indicated in my 
remarks, the Administrative Office of the Courts and Judge 
Julia Gibbons, who is the chairman of the Budget Committee for 
the United States Courts, will be before you next week, and 
they will have some detailed answers on this for you. But 
historically, the first things that are cut when there is an 
across the board cut in expenditures for the courts, are 
pretrial sentence officers and probation officers. And this is 
very dangerous. Then public defenders are also on the list. I 
am not sure, it could be that if you cut public defender, and 
the indigent does not have an attorney, then the court has to 
appoint one and pay out of court funds for a private attorney, 
and it will be more. That would be a guess. I am not sure of 
that dynamic, but I will ask the AO. But this is serious 
business. We have, oh, my guess is 100,000 criminal 
prosecutions a year in the United States courts. And we have to 
have a capital structure, an infrastructure, a functioning 
system to handle this. You know, when I first became a judge I 
thought, well, at lunch we will sit down and I will ask does 
natural law still affect our statutory concepts? Is lex juris 
still a part of the concept of law? Look, the judges say, no, 
our workload, I have got so much workload,--Justice Breyer 
mentioned I was in Sacramento, the United States District Court 
for the Eastern District, which would be the 12th biggest State 
in the Nation by population, they have asked for years for 
extra judges. They have a weighted caseload of over 1,500 cases 
per judge per year. We have four senior judges who are entitled 
to have only a one-third workload. They take a full workload 
because of their sense of duty and commitment and obligation. 
And we simply can't take away the resources from these 
dedicated senior judges who work in order to show their 
dedication to the idea of the rule of law. The Congress must 
reinforce that by giving them the resources they need.
    Mr. Serrano. And my further question would be we know that 
whenever there are budget cuts--and for as long as I have been 
in Congress there has always been the discussion. As you well 
said, you know, every agency feels that their budget should not 
be touched. So one could argue throughout the time that the 
courts needed more funding. But we are living through a very 
difficult time, and there is a desire to cut, cut, cut. So at 
what point does it jeopardize the ability of our system to 
provide fair representation, to provide the constitutional 
mandate and protection? And furthermore, will that be just 
somebody's opinion, or at what point does the judiciary itself 
make some strong statements to Congress perhaps to say, look, 
we can't continue to do it this way. You are constitutionally 
here on thin ice. Can that ever happen, or will we just 
continue to just continue to negotiate over budgets?
    Justice Kennedy. Well, at some point--the courts do not 
have the habit of creating crises in order to obtain public 
attention. But at some point, if we start dismissing criminal 
prosecutions, this is dangerous to the rule of law. And it used 
to be--there is sometimes a concurrent jurisdiction, there is a 
crime that could be prosecuted either in the State court or the 
Federal court. And the old rule when you were in practice was 
that if it is an easy case the Feds take it, if it is a hard 
case we will give it to the States. But States are undergoing 
even more draconian cuts than are being contemplated by the 
Federal Government. In the State of California, I heard there 
was some problem in Los Angeles County--Los Angeles County is 
bigger than the entire Federal judiciary. And I asked my clerk, 
I said find out, they are going to terminate some judges. They 
are saying they are closing 10 Superior courts. I thought oh, 
well, 10 judges, that is not that many. No, 10 courthouses in 
order to pay for other things. And that means there are going 
to be more cases that will have to be tried in Federal courts.
    Mr. Serrano. Go ahead.
    Justice Breyer. Well, I was just going to add that I 
understand the difficulties that you are in. I think it is 
difficult, because everyone always says, well, what I am doing 
is important, and it is. But I think one question you could ask 
is would a cut in this particular budget, say the Federal 
Defenders, actually mean greater public expense? So the way 
that I think about it is I say of course crime exacts enormous 
costs. And it does not help when a serious crime is committed 
to punish a person who did not do it. I think everybody agrees 
with that. And so it is absolutely crucial to find out the 
person who did do it. And that is the person who should be 
punished. And that means a part of that is you have a judge and 
part of it is you have a lawyer.
    So if in fact that person can't get a lawyer, or a lawyer 
who is capable of representing him, one, you will get the wrong 
people convicted, and the right people will run around 
committing more crimes. Two, the person, if he is lucky, and 
gets into prison, will start realizing he can complain about 
inaffective assistance of counsel. And then he will start 
writing petitions about that. And eventually, the courts will 
spend more time and effort concerning his claim about 
inaffective assistance of counsel than it would have cost to 
give him a decent lawyer in the first place. And so at this 
moment I would say the public defenders are below the level 
that would be minimal. And it does really seem to me that there 
is a serious problem in terms of crime, in terms of justice, in 
terms of adding costs to the system if you can't protect the 
defenders. Every society has had judges. And I know we like to 
make fun of them. They are not popular, the judges, and we like 
to make fun of the lawyers, but every society has needed, since 
the beginning of history, people who would present a case 
fairly, honestly, so that the right people and not the wrong 
people are punished. And that is the job, in part, of the 
public defenders.
    Mr. Serrano. Thank you.
    Justice Kennedy. I mentioned in the opening statement the 
phrase ``capital infrastructure.'' Around the world, 
parliaments, legislators, and legislatures are somewhat 
reluctant to give funding to courts. They think judges have an 
easy job, some of them wish they had the job, and it looks like 
it is not that important. And when we go to other countries we 
say look, a functioning legal system is part of your capital 
infrastructure. You cannot have a dynamic economy, you cannot 
have prompt and fair enforcement of contracts, you cannot have 
a safe society unless you have a functioning legal system. It 
is part of the capital infrastructure.
    Mr. Crenshaw. Thank you, Mr. Serrano.
    Mr. Womack.
    Mr. Womack. Thank you, Mr. Chairman. And my thanks to the 
Justices. And I want to acknowledge their long-standing service 
on the bench. And having a wife that has spent 32 years in the 
State court as a trial court assistant, and is still there 
today, I truly appreciate the work that they do up and down the 
entire spectrum of our judicial system. And I appreciated the 
two questions that the lawyers always ask. They were why and 
why not. Well, we are appropriators, and we ask three. What? 
Why? And how much? Occasionally, and we are finding this to be 
the case these days, occasionally we add a fourth question. And 
that is ``what if?'' And so we are in kind of that what if 
scenario now. I truly appreciate the fact that there are not a 
lot of things that you can do without that you currently have 
that you desperately need in order to have an effective 
judicial system. And I want to drill down on one finer detail, 
and that is that last year there was a modest increase request 
for some additional officers. And I am curious if those 
additional resources have been put to use, what effect they are 
having, and indeed are they part of the what if scenario in 
sequestration? And what effect that would have on your Court?
    Justice Kennedy. We asked for half of the new officers we 
thought we needed, and it has worked out. One of the problems 
is if you hire too few people, then you have overtime, and it 
is not that cost-effective. But we have been able to curtail 
that. We will begin opening additional entrances to the 
courthouse, which we must, soon. And our security people will 
be strained. We can manage with what we have now.
    Under the what if scenario, as I have indicated, I think 
our court staff has said that, you know, for 2 or 3 months we 
could probably get by, but after that we have a serious 
problem.
    Justice Breyer. You are touching on another difficult 
question, which is where your judgment is extremely helpful, 
that is called security. If in fact you take, whether it is the 
White House, whether it is Congress, whether it is the Supreme 
Court, and if you have fewer marshals, policemen, you have less 
security. Now, less security is something that costs nothing as 
long as the risks don't come about. But if, in fact because you 
have fewer policemen and someone wandering into the building 
gets shot, or someone is seriously hurt, or there is some kind 
of incident, then you see the cost. So the question there is 
what risk are you prepared to run? And the people who are paid 
to think about that recommended that we get 24 new officers. 
And we got 12. So you say could you survive with no police? I 
guess you could survive. All you would have done is you have 
dramatically increased the risk, as in any public institution, 
of someone being hurt.
    Mr. Womack. Is there any difference between the level of 
training and the cost associated with employing security at the 
Supreme Court than there would be, say, in a House office or a 
Senate office building or the Capitol? Or are they considered 
to be under one sort of qualification umbrella?
    Justice Kennedy. I am not sure. We send our officers for 
initial training to Georgia for standard police training. But 
we also have some officers who are experts in a fairly 
sophisticated business of threat assessment. And that is 
institution-specific. Different institutions draw different 
threats and attract different types of security breaches. And 
so it is rather sophisticated. In fact, our office works with 
the Capitol Police very carefully on prediction and threat 
assessment. And they have done marvelous work for us in that 
regard. So there is some sophisticated assessment that is 
institution-specific.
    Mr. Womack. Justice Breyer.
    Justice Breyer. Our staff here says it is basically the 
same.
    Mr. Womack. Basically the same. And then finally, some 
cases, although they are all important, are somewhat out of 
sight, out of mind to the general public. Other cases are very, 
very high profile cases, like the Affordable Care Act decision. 
On occasion you have to ramp up, I am assuming, additional 
resources to accommodate these high profile cases. Is that a 
major impact on the Court? And again in the what if scenario, 
do we risk, in your words, do we risk creating vulnerability 
for some of our more high profile things?
    Justice Kennedy. I think insofar as standard crowd control 
for seating in the courtroom, we have I think over 100,000 
people a year see an argument, some for just a few minutes 
because we have a line where you can just come in and watch for 
a few minutes. And we almost always have a full courtroom. 
Sometimes the line for the high profile cases starts early in 
the morning or early in the evening, and there have to be one 
or two extra officers there.
    The real risk is in the threat assessment area when the 
high profile cases come. That is something you don't see.
    Justice Breyer. That is true. And judging from the staff 
reaction here, there is some extra cost in those cases. But I 
would not start there. After all, those are the cases where 
emotions run high. And people are unlikely to get upset when we 
hear a case of whether the comma before the word ``for'' in the 
Internal Revenue Code section--imaginary--403(c)(6) means the 
next word, which was a ``for,'' should be read as a ``which'' 
or a ``that.'' I mean we did have a case sort of like that 
once. But people don't care that much, or they don't get 
emotionally involved. They do in some of the others. And the 
fact that there are large numbers of people trying to get in 
and so forth I think is a sign that it is important to have the 
crowd control in those kinds of cases.
    Mr. Womack. Once again let me reiterate my thanks to you 
for your service on the bench. I have a whole list of a lot of 
really tough legal questions, but my colleague here from Kansas 
is going to ask most of those questions, I am confident, and I 
am going to allow him that opportunity. Thank you, Mr. 
Chairman.
    Mr. Crenshaw. Thank you. Mr. Quigley.
    Mr. Quigley. Thank you, Mr. Chairman. I, too, want to thank 
the Justices for their service. There is sort of a built in 
reflex when you practice as long as I did of ``may it please 
the Court'' and wait to get asked questions that are making me 
sweat. But it is 10 years, 26 in California and Chicago as a 
criminal defense attorney, highest conviction rate in the 
county. But that is usually funnier in Chicago. One of the 
things you talked about, both Justices did, was communicating 
with the public. And it is an issue we struggle with at the 
State level, and that is televising the proceedings. Now, there 
is a video--I mean there is an audio of the Supreme Court, but 
it gets to your point. One of you mentioned the public doesn't 
necessarily know how things work. Clearly, the public's trust 
in almost all government institutions is at an all time low. 
The perhaps way overused expression from I think 1916 from 
Justice Brandeis about Sunshine being the best disinfectant, is 
that issue still possible to televise the proceedings of the 
Court?
    Justice Kennedy. We take the position--my position is, and 
I think a number of the other Justices--that we are a teaching 
institution, and we teach by not having the television there, 
because we teach that we are judged by what we write, the 
reasons that we give. Now, you could have an Oxford-style 
debate if you were in college, and if you drew the side that 
said you want cameras in the courtroom you could make a number 
of very important points. Number one, as you indicated, 
Congressman, we are in the business of teaching. Not everybody 
can see an oral argument. It is a great civics lesson. For the 
attorney who is going to appear for the first time, it would be 
invaluable to have some tapes to see how the oral arguments 
work. You can't get exactly the dynamic from the oral 
transcripts. So if you were making debate points you could 
score a tremendous number of points by taking the affirmative 
position that we should have cameras in the courtroom. It is 
not an unreasonable position.
    We feel, number one, that our institution works. And in my 
own view, there would be considerable reluctance to introduce a 
dynamic where I would have the instinct that one of my 
colleagues asked a question because we are on television. I 
just don't want that insidious dynamic to intervene between me 
and my colleagues when we have only half an hour for each case. 
So we think that in our courtroom that cameras would be 
inconsistent with the tradition of oral argument of the Court 
that we have. I say we, I think I speak for a majority of the 
Justices and myself. Sometimes in trial courts the cameras are 
good so the public can see when the system is broken, when it 
is not functioning. That is important. That is important. And 
one of the things we are facing is with newspapers facing 
critical financial problems, they are laying off court 
reporters, that is to say press reporters who go into the 
courtrooms, police court reporters. And this is very--this is a 
real check, because you need an experienced reporter to know if 
that judge is being irascible and unfair or just necessarily 
stern with an attorney. You have to have an experienced 
reporter to understand that. And the blogs won't take care of 
it. Blogs can fill in for what a lot of newspapers do, they 
can't fill in for this. So it may be that cameras in courtrooms 
are more important, and not less, when experienced police 
reporters are not paid by the press to do the job they 
historically did.
    Mr. Quigley. Justice, I have seen a lot of theatrics in 
courtrooms, and some of it begat, I suppose, from TV cameras or 
an attorney advertising. And in all my life I can't imagine the 
Supreme Court acting in a way other than that which they 
normally would whether there is cameras there or not. But I 
respect your point.
    Justice Breyer.
    Justice Breyer. It is quite a difficult question, and I get 
asked a lot. When I think of a case, remember the Arkansas 
case, which was whether you could have term limits in the 
House. It was could you limit term limits. And my goodness, 
that was a difficult case. You see Jefferson, you read he said 
one thing. And Hamilton and Madison said another thing. And 
Story said another thing. And you go back into history and it 
is really evenly balanced. And if a million people could have 
seen that oral argument, I thought that was one of the best 
oral arguments you had. You would have seen nine people really 
struggling with a very, very hard issue, and trying to reach 
the correct result. So that would be so educational, that would 
be wonderful. So that is the plus side. So you say, well, why 
are you hesitant? And I absolutely begin where Justice Kennedy 
does: we are a very conservative institution with a small C. We 
are there as trustees. It was going before we came, it will be 
there after we go. And the last thing any one of us wants to do 
is to do something that will make it worse as an institution.
    So what is the relevance of that? Well, I sometimes worry 
on a subject you will know better than I do, we are a symbol. 
If we bring the cameras into the courtroom it will be in every 
criminal court in the country. You want it in every criminal 
court in every case? What about juries? What about witnesses? 
What about intimidation? I worry about that, but there I say 
you are the expert, I am not. Then I think, well, you know, the 
oral argument is only about 2 percent. It is not oral argument 
that matters in a case. It matters in a few cases, yes, and it 
helps always. But that is not what this is turning on. That is 
an appellate court argument. You have been in appellate courts, 
you understand it. And I am trying to decide a matter of law 
which will affect 200 million people who are not in that room. 
But when you look at something on television, as opposed to 
reading about it in the newspaper, you identify. Human beings 
identify with other people. There is the good one, there is the 
bad one. And then they get the quotes, and believe me there is 
the good one and there is the bad one. And, and so I think that 
is not what I am here to do. And so will people get a wrong 
impression? But if you want to know, I have come to the 
conclusion, and I might be wrong, what I think is the really 
driving force on the negative side is this. The people who you 
would find surprising, I won't say who they are, they come to 
me and they say be careful. You think it won't affect you, your 
questioning. You think it won't. I mean we have the press there 
every day, but believe me, if I am onto something with a lawyer 
I don't care. I might produce the most ridiculous example that 
I have ever thought of because I think it is going to advance 
me with that lawyer, that is I am going to get a question out 
of him, I am going to get an answer, and I don't care if I look 
a little bit stupid in the newspaper. I would rather get the 
answer. Okay. So that is my method. And what they say to me is 
you think you won't change. The first time you see on prime 
time television somebody taking a picture of you and really 
using it in a way that you think is completely unfair and 
misses your point in order to caricature what you are trying to 
do because they don't believe in the side they think you are 
coming from, the first time you see that, the next day you will 
watch a lot more carefully what you say. Now, that is what is 
worrying me. So you say, well, so what, what is your action? 
And I say I am not ready yet. I mean I want to see a little bit 
more of how all this works in practice. I would give people the 
power to experiment. I would try to get studies not paid for by 
the press of how this is working in California, of how it 
affects public attitudes about the law. I would write some real 
objective studies. I know that is a bore. But that is where I 
am at the moment.
    Mr. Quigley. Thank you. Mr. Chairman, I am going to yield 
back. But I would like the Justices to contemplate something I 
thought about last night when I was thinking of asking you this 
question. When the movie Mr. Smith Goes to Washington was 
released, Members of the U.S. Senate didn't want it to happen 
because they thought it made them look bad. At the same time, 
the representatives in the Soviet Union didn't want the movie 
shown there because they thought it made us look so good. I 
think there is a beauty in the history of the Supreme Court and 
what takes place there. And I think about what it would mean if 
generations to come could watch the arguments that took place 
in Brown v. Board of Education, or Gideon, extraordinary 
moments that changed history and made our country a better 
place. Watching at least 2 percent of part of that I think is 
very, very important. And I think what you do is absolutely 
critical. I think there is a beauty to our system that is 
unparalleled in the world. And I would like my kids to watch 
it.
    Thank you.
    Mr. Crenshaw. I can remember as a young lawyer watching the 
oral arguments in the Charlotte-Mecklenburg, the famous bussing 
case. And that is still vivid in my mind. That would be great 
to have the video, to play that from time to time. That was 
probably 30, 45 years ago. Anyway, thank you.
    Mr. Yoder.
    Mr. Yoder. Thank you, Mr. Chairman. Justices, it is my 
honor to have you all here today. Certainly I appreciate your 
noting the conversations you have around the world about the 
rule of law and how important it is to have an independent 
judiciary. And part of our role is to make sure that the 
resources are there so that you can do your job effectively to 
sustain the rule of law in this country. So thank you for the 
work that you do in that regard, and you are not just another 
Federal agency that is here to ask for some programming 
dollars. You are a third branch of government, or maybe the 
first branch of government in your eyes, whichever it maybe be. 
I don't know that they are ranked or not. But you are a co 
equal branch of government, and we have a responsibility to 
make sure that the resources are there necessary to ensure that 
the laws that we create here are upheld in a fair and judicious 
manner. So thank you for that.
    As a young attorney and University of Kansas law grad, I 
always want to put in a good plug. And to the extent I know, 
Justice Kennedy, you had KU grads on your staff there, I am not 
sure, Justice Breyer, if you had, but if not it is a good time 
to think about it. Always good to have a good Jayhawk on your 
team. I wanted to talk a little bit about the allocation of 
resources beyond just the Supreme Court, and if you might help 
us in that regard. I did note in your testimony that only 1 
percent of the entire Judiciary's budget is the Supreme Court. 
So the other 99 percent, and the large bulk of the expenses and 
the challenges that we have and the things we have in our own 
Federal courts, making sure that they are fully properly 
funded, and that they don't have backlogs is an important 
component of what we are all trying to do here.
    I note some courts have heavier caseloads than others. We 
have particular courts that are continually having too heavy a 
caseload, and they are having a struggle to be able to resolve 
that. We discussed this a little bit a couple of years ago when 
you were here, and I wanted to return to this topic again. As 
we are looking at the sequester and as we are looking at 
certain things that are going to affect how the judiciary 
handles their resources, are there fundamental changes we could 
make--or maybe fundamental is not the word--are there 
structural changes that could be made either in the amount of 
jurisdictions or the amount of different courts that we have in 
a way that maybe we have some courts that have less resources 
than more? How do those decisions get made in terms of how we 
would go forward on that? And are there structural changes, not 
just looking at technology, not just looking at, you know, 
finding ways to reduce staffing where we have to. But are there 
things that we could look at structurally that might make the 
judicial system more efficient and could work better on less 
dollars?
    Justice Kennedy. That is such a difficult question I am 
tempted to give it to Justice Breyer first. To begin with, as 
you have indicated, the courts, depending on their location, 
have different caseloads. Our courts along the southern border 
are simply swamped with immigration cases for the obvious 
reason. Our judges are very good. One of the benefits of the 
Federal judicial system is that we can take Article III judges 
from all over the country and assign them. And our judges are 
very good about doing that. But inter-circuit assignments does 
not quite solve the problem. I think sometimes that you can 
take a look to see if laws are producing litigation that is not 
necessary, that is very expensive. The whole question of tort 
reform is something that the States ought to look at. 
California has done it rather successfully in the medical area. 
So you can look at the substance of the laws that you pass and 
look at the litigation impact that those laws would have.
    Justice Breyer. Well, I have a couple of ideas, but I will 
suggest one that I have thought about a little bit, and the 
other I won't suggest because I haven't really thought it 
through. But the first one that used to be of interest to me 
when I was chief judge of the 1st Circuit, which was more 
administrative, is there has always been tension and a problem 
between GSA and the courts, because the courts have to pay GSA 
rent. You see? And the executive branch doesn't pay for court 
services. I mean the judiciary provides all the services to the 
executive branch they want for free. But why then do the courts 
pay for the services the executive branch gives to them? Now, I 
am certain some work can be done there. And I am certain that 
if you could separate those two things out--I am not certain, 
but I think it might help in respect to having a more rational 
allocation of what tends to be a large share of the court 
budget. And I have a few other ideas, but probably sometimes I 
have a good idea and it is surrounded by 10 rather bad ones. So 
I think I will stop.
    Mr. Yoder. I was hoping you could give an example of some 
sort of--maybe an absurd example like you were discussing 
earlier that we could capture on camera here and they could 
play later on the evening news. This would be your one chance 
to do that.
    Justice Kennedy, I might follow up on your point which I 
hadn't really raised but is a good point, are there particular 
items that are generating a large amount of litigation that we 
could discern through some sort of analysis or report that the 
judiciary could provide? How would we go about finding out 
where those pressure points are?
    Justice Kennedy. I think we have good statistics in the 
district courts and the circuit courts on the numbers of cases 
that a specific law has introduced. One reason our civil case 
log, our civil case docket is down in the United States Supreme 
Court is new statutes that Congress passes produces litigation. 
And there haven't been many major statutes--last year the 
health care statute is one, but that takes a long time to come 
up to us. The Bankruptcy Reform Act was, oh, more than 10 years 
ago, has produced cases. New statutes passed by the Congress 
generate cases. Dodd-Frank and the other securities act, the 
financial cases have not seemed to produce much. But those 
cases are beginning to work their way through the system.
    Justice Breyer. I will add one thing which might be useful: 
you are triggering some memories, and the problem doesn't 
change very much over 30 or 40 years. It is more pressing now, 
but it has been around a long time. And there were two things, 
one I went to and the other I read, years ago, that I thought 
were very useful in this respect.
    One, Chief Justice Burger used to have Williamsburg 
conferences where he would invite Members of Congress, their 
staffs, as well as judges to discuss all kinds of issues of 
interest to the judiciary, of less interest to Congress, but 
some were interested. And one year it was this subject, exactly 
this subject of how could you make the judiciary more 
efficient. And people had a range of papers, very interesting. 
All sorts of ideas in that. And I think that it would be 
perhaps interesting for you to read, or your staffs to read.
    The other was Lee Campbell, who is a judge in the 1st 
Circuit, was on a commission or head of the commission called 
The Judiciary of the Future or something, and that was probably 
20 years ago, in the 1980s sometime. And they were considering 
different ways of restructuring or other reforms if the 
judiciary continued to grow in its caseload. And so I think in 
that you will find a variety of rather interesting ideas of 
what to do as the input increases you don't want to diminish 
the output, but you want to have a more efficient way of 
getting to the same output, of letting it go up 
proportionately.
    Justice Kennedy. The judiciary has found that if a judge--
in a civil case--gets into the litigation early and has 
settlement conferences and attempts mediation and so forth, 
that you can reduce the caseload and maybe come to a settlement 
that the parties think is efficient. That is costly for the 
judge. It takes a lot of time for the judge. And if per chance 
the case is not settled, a lot of that effort has been wasted. 
One of the things we are finding is that the major civil 
litigation in the United States is being taken out of the 
Federal judicial system and going into arbitration. And it is a 
matter of great concern that this judicial system, which so 
many of us have devoted our lives and careers, is not seen as 
the fairest, most efficient, most effective way to resolve 
disputes. And it is not. But that is in part because of the 
substantive laws that make it risky for major defendants to go 
into the litigation system. Many, many lawyers tell me we will 
tell our clients we think you have a very good case, we think 
that you should prevail, you can't take the risk. And there is 
something wrong with that.
    Justice Breyer. You may know, Judge Gibbons is going to 
talk about this next week. The Judicial Conference is now 
studying cost containment and structuring and making an effort 
to achieve an objective of cost containment through 
structuring. And she is going to discuss that with you.
    Mr. Yoder. Maybe I will try to read those documents between 
now and next week that you suggested. Hopefully they are thin 
reading. Thank you for that. I appreciate all the ideas. And I 
guess, Justice Kennedy, the notion that big statutory changes 
create the opportunity for litigation, whether it is bankruptcy 
or Dodd-Frank or health care, so certainly as there is gridlock 
in Washington, D.C., that is, I guess, an aid to the courts in 
that we are not getting some of those big acts right now. So 
you can send us a thank you card on that.
    With that, Mr. Chairman, I yield back. Thank you.
    Mr. Crenshaw. Thank you. We have been joined by the ranking 
member of the full Appropriations Committee, Ms. Nita Lowey. 
And I would like to welcome her and ask her if she has any 
questions she would like to pose.
    Mrs. Lowey. I do, Mr. Chairman. And unfortunately or 
fortunately, one of the responsibilities is to go to almost all 
the Appropriations hearings. So I apologize that I am delayed. 
And I just want to say that it is such an honor for me to have 
Justices Kennedy and Breyer here before us today. My husband, 
as you know, Justice Breyer, has been practicing law for over 
55 years. And he has never had the honor of asking you 
questions. So I don't know if he is watching C-SPAN, but 
believe me I am going to tell him about this. So I thank you 
very, very much. And I really appreciate your dedication to our 
country and the court. We are honored.
    Justice Breyer. Thank you.
    Mrs. Lowey. Now, just one question and then one comment. If 
the sequester were to continue, the Federal judiciary would see 
a reduction, as you know, of approximately $350 million. Chief 
Justice Roberts recently noted that a significant and prolonged 
shortfall in judicial funding would inevitably result in the 
delay or denial of justice for the people the courts serve. I 
am very concerned that bankruptcy proceedings, civil cases, 
will be delayed, that U.S. attorneys will not have the 
resources to prosecute important cases, and that when some 
criminal cases go to trial delays could infringe on a 
defendant's right to a speedy trial, potentially allowing the 
wrong people to walk free.
    A simple question. Are you concerned that the sequester 
could ultimately infringe on a party's right to a speedy trial 
or other elements of due process?
    Justice Kennedy. I could adopt your really carefully 
thought out question as my answer.
    Mrs. Lowey. Thank you.
    Justice Kennedy. All of the risks, all of the potentials, 
all of the concerns that we have about long-term sequestration 
are encapsulated in your question. Yes, trials would be 
delayed. Yes, bankruptcies would be delayed. Remember, 
bankruptcies are a way for businesses to start over. This is 
cost efficient. One of the signers of the Constitution went 
bankrupt. This is an old problem. And bankruptcy judges, some 
of the hardest working judges in our system, and they have to 
know a tremendous amount of law. They have to know bankruptcy 
law, they have to know State law, they have to know community 
property law, they have to know tort law, they have to know all 
of our law. They have tremendous workloads. But they keep this 
economy going. And if you slow that down, if you slow down 
civil dispositions where contracts are waiting to be enforced, 
whether a plant is going to be built and so forth, whether 
damages are going to be paid to someone who was the victim of a 
breach of contract, if you are going to potentially cause 
dismissal of suits because--of criminal suits, criminal 
prosecutions because of delay, then you are threatening the 
efficiency of the legal structure. And if you have an 
inefficient legal structure then the economy does not recover 
properly.
    Justice Breyer. Yes. I agree. It is a question of how long, 
how much.
    Mrs. Lowey. Thank you very much. And then I just have one 
other comment that I want to share with you. This month you 
will hear cases that are of the utmost importance to many 
American families, that is whether gay Americans have the same 
constitutional rights to marry as straight couples, and whether 
Congress can deprive legally married gay couples of Federal 
recognition and benefits. I mention this not because I expect 
either of you to speak to this issue. In fact, I know you will 
not. President Bill Clinton, who signed DOMA into law and now 
requests its demise, recently wrote, the question of these 
cases rests on, quote, ``Whether it is consistent with the 
principles of a Nation that honors freedom, equality, and 
justice above all, and is therefore unconstitutional,'' end 
quote.
    In the time that has passed since 1996, my views, along 
with President Clinton and Obama's and many of my colleagues, 
the country's, the face and makeup of our families have all 
changed for what I think is for the better. Those of us in 
Congress, regardless of religion or party, represent human 
beings in loving relationships who wish to have the rights 
granted to those of us sitting on this podium today. I cannot 
in good conscience tell my constituents that their country does 
not value their bond, their commitment, or their family. I ask 
you just to consider my words, and thank you again. It is a 
privilege to have you before us today. Thank you.
    Mr. Crenshaw. Thank you, Mrs. Lowey. We have got a little 
bit of time. And I wanted to ask, as a second round of 
questions, a couple of appropriations questions. I mentioned 
earlier, and I think in your remarks, $3 million of your 
request this year of the $86.5 million was for some operations, 
I guess maintenance, preservation. As I go by the Supreme 
Court, I guess is that the West Front that looks like you are 
working on it? And then the East Front, and I understand there 
is the request for some money to fix up the I guess it would be 
the north and the south. Maybe you can just tell me a little 
bit about what is going on I guess I would call it the front 
and the back, and what is next in terms of the facade. I guess 
the Architect of the Capitol makes that decision. When I was 
chairman of the Leg. Branch Subcommittee we funded his office, 
and he had a long list in terms of priorities of what needed to 
be done. We can't always afford to do everything. But I assume 
that that moved up on his list, and that is why it is in your 
request. Could you talk briefly about that?
    Justice Kennedy. What is happening is, and this was not 
predicted, at least we did not know about it, is the marble on 
the Court, because of moisture, because of flaking, because of 
exposure to the elements is beginning to come off. And it is 
actually life-threatening. Some big chunks of marble have 
actually dropped down. So that scaffold that you see will move 
all around the building. And it will take a couple years to 
finish. They have what they call a scrim, which is what they 
use in ballet productions and dramatic productions in theaters, 
which is a screen canvas that is porous to light but yet there 
is a painting on it. So what you are looking at is not really 
the Supreme Court, it is a picture of the Supreme Court. It is 
absolutely fascinating. And it kind of reminds me of the 
allegory of Plato's cave. I don't know if I am in the cave or 
out of the cave. I see these shadows. So we are going to have 
to put up with this. But this was not optional unless the 
building is to be torn down.
    Mr. Crenshaw. Do you have to finish the work that you are 
doing now on the east and the west before you start moving 
around the building to do the----
    Justice Kennedy. I don't know exactly. My understanding is 
it is going to be done in quadrants, and they will finish the 
front before they do the sides. The front is the most dangerous 
part because that is where it was actually falling.
    Mr. Crenshaw. I got you. And then that $3 million was the 
number given to do the next part, the east front.
    Justice Kennedy. We understand that that is for the total, 
that is for the total cost of going all the way around the 
building.
    Justice Breyer. Staff says the east and west has been 
funded.
    Mr. Crenshaw. Got you.
    Justice Breyer. Now the additional is for the north and 
south.
    Mr. Crenshaw. Got you. While I am talking about that, when 
you go by the Supreme Court you see a big hole that is next to 
the Supreme Court. Is that something you all are working on or 
is that somebody else?
    Justice Kennedy. That is going to be a vegetable garden so 
that we can reduce costs. Actually, it is part of the 
landscaping. We had to tear it up in order to make the 
subterranean addition for the improvement that was done some 
years ago.
    Justice Breyer. This is the Architect of the Capitol. And 
he understands it and creates the budget.
    Mr. Crenshaw. I got you. One other question. In 2013, it is 
my understanding that there was a million dollar request made 
for some police radio funding. And as I understand it, the 
committee didn't provide that million dollars. Do you know 
whether the police radios were upgraded or acquired? And if so, 
where did the money come from? Anybody know?
    Justice Kennedy. We will have to get back to you on that.
    [The information follows:]

    The Supreme Court has not found a source of funding for this 
upgrade, which is still needed. The current Motorola VHF radio 
infrastructure, which has been in place for 10 years, is about to reach 
end-of-life and will no longer be supported after 2015. Upgrading to 
the next generation of radio equipment would allow the SCUS Police to 
fully utilize technology advancements made in portable and mobile 
subscribers. Additionally, the upgraded system would leverage a hosted 
Motorola Key Management Facility that the Supreme Court has access to 
via Memorandum of Agreement with another federal agency. This access 
eliminates the need to install a one million dollar Key Management 
Facility, as well as procuring the manpower required to administer the 
system.

    Justice Breyer. Staff says it wasn't us.
    Mr. Crenshaw. Okay. It wasn't you. Maybe it is the 
Architect of the Capitol again. Thank you for that. Mr. 
Serrano, do you have other questions?
    Mr. Serrano. Yes, I do very briefly, Mr. Chairman. But 
first I would like to sort of bend a little bit of the protocol 
of the subcommittee to say from where we sit it has been 
wonderful to see, and you can't see this, the number of young 
people that have spent time this morning watching this hearing. 
They have been in the back. They have been in and out. But 
large groups have stayed for a long time. And, you know, I am 
always interested, as we all are, in how they see our system, 
how they see our country, and what they want to do about it in 
the future in terms of their involvement and their opinions. 
And so to have two of the branches here discussing the 
vegetable garden and other issues, but the whole idea is 
something that we can be proud of today that we were able to be 
here.
    Let me ask you a question. As in past years, I continue to 
be interested in seeing an increase in the number of minorities 
selected for Supreme Court clerkships. I know that there has 
been an initiative in place at the Federal judiciary to help 
recruit more minorities into clerkship positions. Do you think 
these efforts are starting to bear fruit at the district and 
appellate levels? And also, a joint question, as you speak at 
commencements, and law school seminars, and court competitions 
and other things that you do with young people, is it part of 
the message to encourage some folks to apply for these 
positions?
    Justice Kennedy. I taught night law school for many years, 
and have been teaching in Europe for 25 years. And Justice 
Breyer, of course, was a regular member of the faculty. I am 
sure that all of our colleagues encourage young people to apply 
for clerkships. I used to tell applicants for a clerkship when 
I was a Court of Appeals judge, they would come and say that 
they wanted to be with me for a year. I would say I just have 
to tell you, truth in advertising, you would learn a lot more 
if you were with the district court. District courts have to do 
everything we do, they have to write opinions, they have to 
research cases, plus they try cases. You can really learn a 
tremendous lot. They say, oh, no, I want to be with you. I 
said, I know, I know, I understand.
    If you have a clerk who has been with the district court, 
they really have a respect for the record and a respect for the 
evidentiary process that young people that have been just in 
the appellate system sometimes need training. And so I really 
encourage clerks to start with the district courts. It is 
simply wonderful. One of the advantages of being a United 
States Judge is you have these young people, we have them for 
just 1 year, but you know the secret of youth is youth, and if 
you are surrounded by young people it gives you new 
perspectives, new insights, new energies.
    Mr. Serrano. Great.
    Justice Breyer. I have had quite a few minority clerks, a 
lot, actually. And the question is has there been a change over 
time in that? And it has been an improvement in the sense that 
I haven't had to look as hard. And, you know, you have had to 
do a lot of encouragement. You had to make a little effort 15 
years ago. You know, you can apply, and please, and so forth. I 
would say the extent to which it requires an effort is 
improved, less in other words, but it still does require 
something of an effort. Less than it did. But I think 
consciousness is important. And so I think it is good to 
encourage people, that is right, at these different levels. And 
you will see, you know, you are not doing anybody a favor, you 
will see the effort pays off. And it is worthwhile.
    Mr. Serrano. I have one last question, Mr. Chairman. And 
that is the issue that we have discussed before about applying 
the Code of Judicial Conduct to the Supreme Court. We know 
right now it applies to other judges, for the Court it applies 
as an advisory situation. Different thoughts in the past. Have 
the thoughts changed on that whole issue of applying the 
Judicial Conduct?
    Justice Kennedy. I have never had a problem with it because 
in my own professional career, and I am absolutely confident in 
the career and the manner in which my colleagues conduct 
themselves, we consider those guidelines absolutely binding. 
The problem is those guidelines can and should be made by 
members of the relevant judicial committee of district judges 
and circuit judges. And we think it is potentially difficult 
for circuit judges to make rules that are binding on us. That 
is the binding part. As a matter of following those precepts, 
we follow those precepts. I think Justice Breyer, as I recall 
the last time we were here, explained very well that there are 
some differences. Recusals. If there is any reason at all for a 
district judge or a Court of Appeals judge to recuse himself or 
herself, they will do that. But on our Court, if we recuse 
without absolutely finding it necessary to do so, then you 
might have a 4-4 Court, and everybody's time is wasted.
    Justice Breyer. That doesn't mean it is different 
guidelines. I have in my office the seven volumes. And they are 
all in nice leather. And if there is a recusal problem I, like 
the other members of the Court, go right to those seven volumes 
and look it up. And we each have a system in case we can't 
figure out what the answer is. And I call some ethics 
professors. There is one I call particularly. And I ask what is 
your interpretation? What should I do? Okay. So I see no 
difference right now between the Supreme Court and the rest of 
the courts in terms of the binding nature. If you go pass a law 
about it, it raises questions. So that is, you know, people 
love to argue those kinds of questions. Who has the right to do 
what? I tend to think don't raise unnecessary questions. And I 
don't see any necessity now. And the differences that come 
about are just what Justice Kennedy said. And you don't want to 
be manipulated by somebody off of a case. So you are careful 
about sitting, as well as not sitting.
    Mr. Serrano. Well, I thank you for your answer. And I have 
no further questions. I thank you for your testimony today, and 
thank you for your almost opinion on my case. It will be fine. 
And we continue, certainly, and I know the chairman shares this 
view, or I share it with him, our role is to strengthen the 
judiciary, to make sure that even during these difficult times 
the whole system is able to do what it has to do on behalf of 
our communities and on behalf of our democracy. You know, what 
was beautiful about those young people being here today seeing 
these two branches speak to each other is the fact that we have 
a system that allows that and a system where we can ask 
questions and get answers and continue to function. And 
sometimes I think we forget that. We celebrate people in other 
countries going through revolutions, but we never wonder what 
it is that they want. And I suspect that in many cases what 
they want is exactly what we have, or something very similar to 
it. And I celebrate that today as I speak to you.
    Thank you.
    Justice Kennedy. Thank you.
    Mr. Crenshaw. Thank you, Mr. Serrano. And maybe before you 
go, as an aside, the last time that I was on this committee, I 
guess a couple of years ago, and we were sitting around 
chatting, and Justice Breyer, you won't remember, but as a 
young law student I can remember there was a case--I can't 
remember the name of the case--and I always thought it was 
Marbury v. Madison, but the statement in the case was that I 
have always remembered, basically it said versatility of 
circumstance often mocks a natural desire for definitiveness. 
And I always thought that was interesting, well said. I am not 
sure exactly what it means. It is kind of Supreme Court-ese. I 
think it means maybe you got to be flexible. But when I asked 
Justice Breyer if he remembered maybe what case, his response 
was, well, just go Google it, which I did, and it didn't come 
up. So Justice Kennedy, you weren't here that day. Does that 
ring a bell? Can you cite a case that that sounds like it may 
have come from?
    Justice Kennedy. It does not sound like John Marshall. John 
Marshall used to see how many lines or couplets of Pope he 
could remember, he could memorize. And he had over 600. And 
that affected his writing style, because Pope has a balance and 
so forth. Lincoln and Churchill shared something in common, 
they both read very few books, but they read them again and 
again. Lincoln because he didn't have any, so he read the Bible 
and Shakespeare again and again. And Robert Burns. And 
Churchill by choice. He thought that you should read good books 
again and again. But not too many books. So he read Gibbons, 
the Decline and Fall. And if you read Churchillian prose, it is 
Gibbons. And the quote you gave is sufficiently baffling that I 
think it might come from Cardozo, but it doesn't----
    Mr. Crenshaw. I am going to keep looking.
    Justice Breyer. I tell you who it reminds me of, I think it 
is a good point both for legislators and judges I think. 1584, 
Montaigne. Fabulous essay on human experience. Now he talks 
about law. And he says, Justinian got really angry at his 
judges, or some Roman emperor, I don't know. And he said, I am 
going to fix those judges. What I am going to do is I am going 
to pass a code that is so complicated and so detailed that they 
will then have to follow what the code says, and they won't be 
able to substitute their own judgment. And Montaigne says, you 
know what, he was really stupid, he says, because what he 
doesn't understand is every word in a statute is just meat for 
the lawyers. The more words you have, the more arguments you 
have. The more arguments you have, the more the judges can do 
anything they want. And he said that is the worst possible 
thing. And he says I would rather live in a country with no 
laws than a country with too many laws like France. That is 
what he says. 1584. And he says, by the way, the reason is just 
what you said. The reason is because human experience is such 
that when you try to draw lines, experience overflows the 
boundaries. And what we discover is circumstances come up that 
we never thought of. So you have to keep a little flexibility. 
I think that is the point. And I love remembering that as a 
judge. And when I used to work in the Senate, I don't know if I 
knew it then; I must have read it sometime. I worked on the 
staff there, and I thought it is pretty good for legislators or 
staff members.
    Mr. Crenshaw. Great. We have been joined by Mario Diaz-
Balart, a member of the subcommittee. Do you have any questions 
you would like to pose?
    Mr. Diaz-Balart. No. Mr. Chairman, I want to apologize. I 
was in another hearing right now. I apologize I got here so 
late. Good to see you gentlemen.
    Mr. Crenshaw. These are busy times for all the members.
    Mr. Serrano. Mr. Chairman, I just want to state that I feel 
a little left out not being a lawyer in some of these 
conversations. But I did play a judge on Law and Order once. So 
I don't know, maybe I just skipped that part of, went right to 
the judgeship.
    Mr. Crenshaw. Well, it is not all that bad. But again, we 
do thank you for being here today, for your willingness to come 
and testify. And it is one of the I think most interesting 
hearings that we have, to see the exchange between what is a 
very, very important branch of our government, and that we can 
have this kind of dialogue. So thank you very much again. We 
appreciate it. This meeting is adjourned.
                                            Monday, March 18, 2013.

DISTRICT OF COLUMBIA COURTS AND COURT SERVICES AND OFFENDER SUPERVISION 
                   AGENCY OF THE DISTRICT OF COLUMBIA

                               WITNESSES

HON. ERIC T. WASHINGTON, CHIEF JUDGE, DISTRICT OF COLUMBIA COURT OF 
    APPEALS
HON. LEE F. SATTERFIELD, CHIEF JUDGE, SUPERIOR COURT OF THE DISTRICT OF 
    COLUMBIA
NANCY M. WARE, DIRECTOR, COURT SERVICES AND OFFENDER SUPERVISION AGENCY
CLIFFORD KEENAN, DIRECTOR, PRETRIAL SERVICES AGENCY, COURT SERVICES AND 
    OFFENDER SUPERVISION AGENCY
    Mr. Crenshaw. It is 3 o'clock so we will start the hearing. 
I got off an airplane 9 minutes ago. Mr. Serrano is still on a 
train. So he will be here very shortly. But we will start the 
hearing. So I want to welcome everybody.
    Today the hearing is on the District of Columbia Courts and 
the Court Services and Offender Supervision Agency, better 
known as CSOSA. Similar to how a state government funds a state 
court system, the National Capital Revitalization and Self-
Government Improvement Act of 1997 made these agencies the 
responsibility of the Federal Government. So the budgets of 
these agencies are not considered by the Mayor or the D.C. 
Council, but instead are proposed and transmitted with the 
President's budget request. Three-quarters of the Federal 
funding this subcommittee provides for D.C. is for these 
important agencies that serve and protect the citizens of the 
District of Columbia.
    Today I would like to welcome Chief Judge Washington of the 
Court of Appeals, Chief Judge Satterfield of the Superior Court 
and Director Nancy Ware of the Court Services and Offender 
Supervision Agency, CSOSA. Thank you all for being here today 
and testifying.
    We all know that an independent judiciary is something that 
all the citizens can trust and respect, and that is essential 
to our Nation, to our democracy and to the rule of law. And 
equally important is each citizen's right to a fair trial in 
any legal dispute. The D.C. court system does an incredible job 
of ensuring this for their citizens. The Moultrie Courthouse 
sees about 10,000 visitors a day. In addition, CSOSA has a huge 
caseload of its own, supervising over 25,000 offenders 
annually.
    We are all interested in hearing from you and the impact 
sequestration is having on your operations. As I said before, 
operating the government under continuing resolutions and 
sequestration is not the right way to do it, and I think 
Congress should be funding quality programs well and reducing 
or eliminating wasteful programs, and I know Mr. Serrano and 
Mr. Quigley and all the members of this subcommittee agree with 
me that we want to get back to regular order in fiscal year 
2014.
    Although the crime rates in D.C. have dropped within the 
past few years, we are still faced with dangers that all big 
cities are challenged with. These agencies are absolutely 
critical in protecting those who work, live and visit our 
Nation's capital. We appreciate your hard work and look forward 
to hearing your testimony.
    So I would now like to recognize Mr. Serrano, but he is on 
a train, so in his good stead I would like to recognize Mr. 
Quigley for any opening comments he might have.
    Mr. Quigley. Mr. Chairman, thank you. I thank you for 
holding this hearing and I want to thank our distinguished 
panel for being here. I feel at this point since I am so new to 
this committee and the subcommittee, that anything I could add 
at this moment would pale in comparison to the ranking member's 
thoughts, so we will wait for his arrival for that. I look 
forward to listening to this panel and asking them questions.
    Mr. Crenshaw. Thank you, Mr. Quigley. We all know Mr. 
Serrano is apt to make an opening statement anywhere any time, 
so we look forward to his arrival.
    I would like to now recognize Chief Judge Washington of the 
D.C. Court of Appeals for an opening statement. If you could 
limit your remarks to about 5 minutes, that would give us more 
time for questions. Your full statement will be included in the 
record.
    Judge Washington. Thank you. Good afternoon, Mr. Chairman, 
Congressman Quigley and, of course, to the ranking member Mr. 
Serrano who I am sure will be here, and Congressman Womack and 
the rest of the subcommittee. My name is Eric Washington. I am 
the Chair of the Joint Committee on Judicial Administration in 
the District of Columbia and the Chief Judge of the District of 
Columbia Court of Appeals. I have the pleasure of serving in 
those roles along with my colleague who is accompanying me here 
today, Lee F. Satterfield, the Chief Judge of the Superior 
Court of the District of Columbia. We thank you for having us 
here this afternoon and appreciate this opportunity in the 
absence of a budget submission to update you on key aspects of 
the work of the D.C. Courts.
    Earlier this month the court introduced to our employees 
our third 5-year strategic plan entitled ``Open to All, Trusted 
by All, Justice for All.'' The title is also our vision for 
serving the public in the District of Columbia.
    The Courts' strategic plan provides the framework for our 
budget submission, our Court's operations through division 
level management action plans, what we call MAPs, and our 
employee performance plans. All court initiatives must support 
the goals and objectives of our strategic plan in order to get 
the support of the Joint Committee.
    In support of the plan's first goal, the one that is 
critical to what we do for the citizens of the District of 
Columbia, fair and timely case resolution. The Court of Appeals 
has been working over the past several years to enhance the 
timely resolution of its cases.
    According to statistics compiled by the National Center for 
State Courts, the D.C. Court of Appeals has the highest 
caseload per capita of any jurisdiction in the country and, 
despite our relatively small population, the second highest 
number of case filings of any jurisdiction without an 
intermediate court of appeals.
    We appreciate the support of Congress and the President for 
a new case management system and additional law clerks to help 
us in this effort to expedite case processing. The new 
technology helps the court manage its large caseload and 
connect to the Superior Court case management system from which 
we are now able to obtain the trial records electronically. 
This has increased efficiency and the court has revised its 
internal operating procedures to better take advantage of this 
increased efficiency by designating the trial court record as 
the record on appeal.
    We are pleased to report that these efforts have begun to 
show results. The Court of Appeals has steadily reduced its 
median time on appeal from a high of 505 days in 2007 to less 
than a year, 352 days, in 2012. But more work remains to be 
done and we are committed to using the resources you provide to 
us to increase even more the efficiency of our case processing.
    In the Superior Court, our trial court we resolved more 
than 102,000 cases last year and have the Nation's second-
highest per capita incoming civil caseload. Courtwide 
performance measures have been adopted to address case 
processing activities, court operations and performance. As 
part of our efforts in this regard, a multi-year business 
intelligence initiative was established to enhance performance 
analysis, reporting and public accountability. That is 
important because through that business initiative we are able 
to get snapshots through an integrated view of our processes 
and of our performance, and then make decisions in a more 
timely fashion about how to better use our resources to address 
the needs which are being reflected in any particular year.
    We have done a lot in the access to justice area, primarily 
we have established a number of self-help centers. Those self-
help centers are in areas where we have seen a large increase 
in litigants without lawyers, unrepresented individuals who 
need help. You can imagine where those areas are. They are in 
small claims. They are in consumer areas, they are in areas of 
landlord-tenant and foreclosure.
    We have established calendars and specialized courts in 
order to address them. We have established self-help centers 
connected to those calendars where we have volunteer lawyers 
from the bar, Legal Aid, and other volunteer organizations who 
come in and help to provide free access to legal services to 
assist litigants in getting through the process and getting 
into court. Once they are in court, we have taken steps to 
amend our judicial Code of Conduct to make clear and further 
clarify how judges can interact with unrepresented litigants in 
a way that will allow the court to effectively hear the issues 
that they wish to bring forward while at the same time making 
sure that judicial actions are not seen as anything but as 
being fair and impartial, thus not promoting one side over the 
other. So we have taken those steps in comments and in 
amendments to our rules.
    Our workforce, of course, is incredibly important to us and 
we have undertaken an initiative called Building a Great Place 
to Work. A lot of that is based on Federal Viewpoint Survey 
results that we have received after administering that survey 
which, of course, is administered in all the Federal agencies. 
That survey showed that we had some real strengths, but it also 
showed that we could improve in a number of areas.
    The areas where we wanted to improve were wellness, work-
life balance and internal communications, and we have taken 
steps in all of those areas to try to improve the quality of 
the life of our employees, because we understand that only by 
having motivated, well-positioned and also well-educated staff 
are we going to be able to meet the needs of the community we 
serve. So, we have taken the effort not only to address the 
needs of our employees through these programs, but through your 
auspices and your help we have been able to re-energize and 
actually automate and develop our Human Resources Division. We 
now can track applicant flow, so that we can hire the best 
people that are available and willing to work for us.
    We also have managed to implement a web-based electronic 
personnel file that employees can access from their desktop, so 
they are more aware of what is in their personnel files. 
Employees know what is required of them through their MAPs, 
which I mentioned, and through their performance evaluations 
which are tied to our strategic plan, so there is a lot of 
continuity throughout the organization and a recognition of 
what we need to do to become an even better court system.
    Infrastructure-wise we have renovated and retrofitted three 
buildings that were built in the 1930s to be effective 
courthouses in this century and hopefully for the next 20 to 30 
years. I am not including the Historic Courthouse, the Court of 
Appeals, which, of course, was renovated a few years ago and is 
a model court building, I think, and one we are quite proud of. 
In addition to renovating those buildings, we have taken steps 
to move and consolidate Family Court operations within the 
Moultrie Courthouse, which is now our big priority.
    We have a master facilities plan which we developed 10 
years ago to project what our space needs would be. We have 
been faithful to that plan in terms of developing our space and 
our infrastructure. Now as we have received funding for both 
design and beginning of construction of new space, we are about 
to begin construction of an addition increasing the space of 
our main trial courthouse, the Moultrie Courthouse, which sits 
on C Street right across from the Newseum, in case that is 
helpful to you.
    In addition, court security is a big issue for us because, 
as you know, there have been courthouse shootings across the 
country, Delaware most recently. We have U.S. Marshals that 
provide judicial security and criminal courtroom security, and 
they move prisoners. We have contractual employees, security 
personnel who are at our front doors. We have enhanced our 
access through an automatic card system that limits the places 
some of our employees can go and enhances their opportunity to 
make it to the areas where they are needed.
    Through that process we have increased security and 
enhanced it, but we have had a recent study done by the 
Marshals Service and they have indicated that we have to do 
more. We need more contract court personnel because we have 
gone from the Moultrie Courthouse as our primary courthouse 
back on to our campus with five buildings in Judiciary Square.
    One of the key aspects of our strategic plan, the one we 
have just released, deals with the public's trust and 
confidence, very, very important to us. We have transparency as 
one our values. We have a number of values. But the public 
trust and confidence is also the ability to provide services 
for the citizens of District of Columbia while maintaining the 
public safety. We do that in a number of ways, most notably I 
think for your purposes because you have seen this as we have 
developed it, we have opened new community-based probation 
drop-in centers, we call them BARJ's. They are restorative 
justice centers to serve young men in three of four quadrants 
of the District of Columbia. Thanks to the support of Congress 
we are about to open our fourth, and this one is focusing on 
young girls and we think it is critical.
    With respect to the impact of sequestration, I can tell you 
that it will have a tremendous negative impact on our 
operations. In the long term when we are looking at our 
strategic objectives, this sequestration, if it lasts too long 
and if our budgets stay flat or are cut more dramatically, in 
the long term it will affect our service to the public because 
we are such a personal services organization. We have 10,000 
people a day who come through our doors. They come to our 
courthouses and make their case filings, to seek protective 
orders and receive services that are fundamental to our 
mission. For that reason, we need to make sure that our 
workforce stays robust. And as I said, we are doing what we can 
internally, but we will need some help. We have absorbed those 
reductions by hiring freezes, not filling positions, keeping 
vacancies, cutting contractual services in non-case processing 
ways.
    With respect to our capital budget we are delaying 
contracts.
    With respect to our CJA budget, our Criminal Justice Act 
budget, we have implemented staggered calendars, reduced 
attorney waiting time, and we have taken other measures such 
as, for appropriate cases, instituting sort of flat fee 
payments which don't necessarily capture all the time that the 
lawyers are putting in, but they are accepting of those 
payments for different stages of the litigation.
    In conclusion, Mr. Chairman, the Courts remain dedicated to 
the fair administration of justice for the people who live, 
work, do business and visit the Nation's capital, and we are 
equally committed to being responsible stewards of the public's 
money.
    Chief Judge Satterfield and I appreciate this opportunity 
to appear before you and look forward to answering any 
questions that you or the members of the subcommittee have for 
us. Thank you.
    [The statement of Judge Washington follows:]

    [GRAPHIC] [TIFF OMITTED] T0953A.007
    
    [GRAPHIC] [TIFF OMITTED] T0953A.008
    
    [GRAPHIC] [TIFF OMITTED] T0953A.009
    
    [GRAPHIC] [TIFF OMITTED] T0953A.010
    
    [GRAPHIC] [TIFF OMITTED] T0953A.011
    
    [GRAPHIC] [TIFF OMITTED] T0953A.012
    
    [GRAPHIC] [TIFF OMITTED] T0953A.013
    
    [GRAPHIC] [TIFF OMITTED] T0953A.014
    
    [GRAPHIC] [TIFF OMITTED] T0953A.015
    
    [GRAPHIC] [TIFF OMITTED] T0953A.016
    
    Mr. Crenshaw. Thank you very much, Judge. I now turn to 
Director Ware.
    Ms. Ware. Good afternoon, Chairman Crenshaw, Congressman 
Womack, Ranking Member Serrano, Congressman Quigley and other 
members of the subcommittee. I am pleased to appear before you 
today to discuss the Court Services and Offender's Supervision 
Agency, better known as CSOSA, which includes the Community 
Supervision Program, and you will hear me refer to it as CSP, 
and Pretrial Services Agency, PSA, for the District of 
Columbia.
    Since fiscal year 2010, CSOSA's overall budget has remained 
essentially flat while costs to operate our supervision and 
public safety programs have continued to rise, effectively 
reducing our budget every year for the past 3 years. In fiscal 
year 2010, CSOSA, including both CSP and Pretrial, received an 
aggregate appropriation of $212.9 million. Of that amount, 
$153.5 million was designated for the Community Supervision 
Program and $59.4 million for Pretrial Services. Currently, 
CSOSA is operating under a continuing resolution that sets our 
funding at the fiscal year 2012 enacted level.
    The recent sequestration order that went into effect on 
March 1st, 2013, resulted in nearly $11 million being cut from 
CSOSA's budget which, as I mentioned, had already been frozen 
at the fiscal year 2012 level. As of September 30, 2012, CSP 
supervised a total of 15,599 offenders on any given day, and 
over the course of the fiscal year, as you mentioned, we are 
responsible for the supervision of 24,000 different offenders, 
many of whom face significant challenges.
    Those with special needs, which comprise approximately 32 
percent of our total offender population, are supervised by 
specialized supervision units, including mental health, sex 
offender and domestic violence supervision teams. These 
characteristics guide us in determining the appropriate 
intervention and supervision strategies needed to improve their 
chances of successfully completing supervision and becoming 
productive members of the community. However, I must underscore 
that recent funding cuts and continual budget uncertainty pose 
significant risk to the success that our agency has previously 
achieved.
    The Community Supervision Program's updated fiscal year 
2013 sequester funding basis is $145 million, which is 
approximately $7.7 million less than our 2012 enacted funding 
level of $153 million. CSP intends to continue targeting these 
reduced resources towards the highest risk and highest need 
offenders under our supervision through evidence-based programs 
and through any supports that we can provide them. However, 
CSOSA is a small agency and therefore does not have the funds 
available in general areas such as training, travel, employee 
awards, administration and information technology with which to 
absorb this level of reduction.
    CSP will now have to cancel and/or reduce contracts for 
offender treatment, housing and other reentry services by an 
additional $3 million and implement a hiring freeze and 
furlough all of our employees for a total of 6 workdays. Such 
reductions are certain to have a significant and possibly 
immediate ripple effect on area public safety and our D.C. law 
enforcement partners.
    In conducting our public safety oriented mission, CSP 
employs four operational strategies: Effective offender risk 
and needs assessment, close supervision, treatment and support 
services, and partnerships. Even in light of our budgetary 
challenges, CSP recognizes the importance of implementing 
several program initiatives in response to emerging criminal 
justice trends such as the changes in offender population 
demographics and the proliferation of synthetic drugs, which 
you may have heard of. These new programming initiatives are 
being accomplished through reallocation and consolidation of 
existing resources and in accordance with our updated fiscal 
year 2011 through 2016 strategic plan.
    It is also important to note that CSP is proud of the 
various mission-related accomplishments and advancements we 
were able to achieve in recent years through collaboration with 
our area criminal justice and law enforcement partners, 
nonprofits, faith-based institutions, social service providers 
and employers.
    I will now turn to the Pretrial Services Agency for the 
District of Columbia. Similarly, the Pretrial Services Agency 
has initiated several steps in fiscal year 2013 to absorb the 
impact of the continuing resolution and sequestration. These 
include reducing its contracted drug treatment services, 
imposing a limited hiring freeze and making reductions in 
information technology, training and forensic laboratory 
expenses. PSA also plans to furlough employees a total of 6 
workdays beginning in April.
    The Pretrial Services Agency provides effective assessment 
and placement into clinically appropriate sanctioned based 
treatment programs for substance abusing and addicted 
defendants to enhance community safety and achieve cost savings 
through community-based supervision in lieu of incarceration. 
In fiscal year 2012, the Pretrial Services Agency placed nearly 
900 defendants in sanction-based residential and outpatient 
services. Pretrial also successfully implemented several 
research based improvements to the Drug Court and the agencies' 
in-house treatment program. These improvements are designed to 
enhance the quality of clinical services and to align them more 
fully with evidence-based treatment practices.
    Many criminal defendants have mental health issues severe 
enough to affect their ability to appear in court and to remain 
arrest-free. In 2012, the Pretrial Services Agency managed 
2,600 such defendants in its specialized supervision unit, 
better known as SSU. SSU provides close supervision of 
defendants and makes referrals to community-based mental health 
services. Most of these defendants also need substance abuse 
treatment. Our specialized supervision unit arranges for these 
services once the mental health condition is stabilized.
    Drug testing services are integral to the judicial process 
and to public safety in the District of Columbia. The Pretrial 
Services Agency Office of Forensic Toxicology Services 
processes urine specimens for CSOSA and Pretrial and tracks 
drug abuse trends within the local defendant and offender 
populations. In fiscal year 2012, the Office of Forensic 
Toxicology conducted 3 million drug tests on 478,000 samples 
from persons on pretrial release, probation, parole and 
supervised release as well as for juveniles and adults with 
matters pending in the D.C. Family Court.
    In closing, while CSP and Pretrial have made great strides 
in providing comprehensive supervision services and treatment 
for offenders and defendants in Washington, D.C., recent 
reductions in resources and ongoing budget uncertainty present 
a host of challenges for the agency and it also threatens our 
ability to continue realizing these successes.
    Thank you for the opportunity to share my testimony, and I 
would be pleased to answer any questions that you may have.
    [The statement of Ms. Ware follows:]

    [GRAPHIC] [TIFF OMITTED] T0953A.017
    
    [GRAPHIC] [TIFF OMITTED] T0953A.018
    
    [GRAPHIC] [TIFF OMITTED] T0953A.019
    
    [GRAPHIC] [TIFF OMITTED] T0953A.020
    
    [GRAPHIC] [TIFF OMITTED] T0953A.021
    
    [GRAPHIC] [TIFF OMITTED] T0953A.022
    
    [GRAPHIC] [TIFF OMITTED] T0953A.023
    
    [GRAPHIC] [TIFF OMITTED] T0953A.024
    
    [GRAPHIC] [TIFF OMITTED] T0953A.025
    
    [GRAPHIC] [TIFF OMITTED] T0953A.026
    
    [GRAPHIC] [TIFF OMITTED] T0953A.027
    
    [GRAPHIC] [TIFF OMITTED] T0953A.028
    
    [GRAPHIC] [TIFF OMITTED] T0953A.029
    
    [GRAPHIC] [TIFF OMITTED] T0953A.030
    
    [GRAPHIC] [TIFF OMITTED] T0953A.031
    
    [GRAPHIC] [TIFF OMITTED] T0953A.032
    
    [GRAPHIC] [TIFF OMITTED] T0953A.033
    
    [GRAPHIC] [TIFF OMITTED] T0953A.034
    
    Mr. Crenshaw. Well, thank you all both very much. We will 
start some questions. I see Mr. Serrano has arrived and I am 
sure he will have a question and maybe have a statement. Mr. 
Serrano, would you like to----
    Mr. Serrano. Thank you, Mr. Chairman. I would like to make 
a brief opening statement. First of all, I apologize for being 
late. The Acela is on time 99.9999 percent of the time, and 
that is true, but not today. It must be something done in 
Boston by those Red Sox fans or something.
    Thank you, Mr. Chairman. I would also like you want to 
welcome Judge Eric Washington, Judge Lee Satterfield and 
Director Nancy Ware. To the judges I thank you for once again 
appearing before this subcommittee. For Director Ware, welcome 
and congratulations on taking over this challenging job which 
has such a large impact on our community.
    I once again look forward to hearing your views on the 
current challenges facing the D.C. Courts and CSOSA. In my 
view, the largest issue facing your agencies, and indeed the 
Federal Government today, is the impact of the sequester. Your 
written testimony details a number of steps that the D.C. 
Courts and CSOSA will be taking to minimize their impact, but 
undoubtedly they will have an impact that will not be positive. 
I hope you will be able to share your thoughts about the effect 
of the sequester on your ability to ensure justice in an 
efficient manner as well as vital supervision and 
rehabilitation services.
    I would also like to hear if you have any belief that there 
will be an impact on public safety from these damaging cuts. I 
had hoped not to ask these sorts of questions today, but 
unfortunately we have not been able to work out a compromise 
that will help maintain the levels of services that Americans 
expect of their government.
    In any event, I thank you for your service, I look forward 
to your testimony, and thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you, Mr. Serrano.
    Let's start by talking a little bit more about 
sequestration, because I think that is on everybody's mind and 
you all touched in your opening statements on the impact that 
it is going to have on you all, and I think everybody on this 
committee agrees that that is not the best way to reduce 
spending. You ought to prioritize issues and some need more 
money, and things that aren't working, then you can reduce 
spending.
    But it sounds to me like you all have thought this through. 
Some agencies we talk to seem to have planned for the 
sequestration and they will have different impacts on different 
people. Some agencies seem to have not really planned on it. 
When I read that the Secret Service, their plan to deal with 
sequestration was to close the White House to visitors, I am 
not sure. It makes me wonder how early they started thinking 
about their plan. But I appreciate the fact that it appears 
that you have thought about that.
    Talk a little bit more about the impact it is going to 
have, but also talk about what is meant in terms of going 
through this exercise, are there things that you have learned 
that you may not have learned otherwise unless this had 
happened to find some good in these difficult situations, that 
maybe there are some things that you can do that are more 
efficient, more effective.
    Can you touch on that? As well as maybe elaborate some, 
because Mr. Serrano wasn't here, but you talked a little bit 
about the impact it is going to have, and also any positives 
that you have found ways to actually be more sufficient. I will 
start with you, Judge.
    Judge Washington. Thank you, Mr. Chairman. I think that, 
and I hope I didn't rush through it too quickly, the impact 
that the sequester is having on us is that we have had to cut 
significant contractual services. We have tried to keep them in 
areas that are non-case processing. They range from contractual 
services that involve rodent control and other issues of 
maintenance for our facilities to, of course, a hiring freeze 
that we have implemented more recently. But before that we were 
holding vacancies open.
    It wasn't an official freeze, but we weren't filling them 
all because we anticipated, having been on this continuing 
resolution for a number of years and seeing the cliff 
potential, we anticipated what might be happening. So we were 
able to absorb some of the reductions, in addition to the 
cutting of contractual services and the hiring freeze, through 
vacancies. What we did to try to address that issue is we 
engaged in a very aggressive cross-training program, which is a 
stopgap measure at best because we have 10,000 people come to 
our courthouse every day, 500 prisoners who come every day to 
our courthouse, and you can only move people around and have 
them cover for short periods of time.
    In the long run, and this is what I meant when I said while 
we are able to absorb some of the cuts now, in the long run 
they are going to impact us more greatly because we won't be 
able to provide the same level of service to the public that 
the public has come to expect and certainly, we believe, 
deserves.
    One of the other areas that we have been fairly, I think 
innovative, as you suggest, Mr. Chairman, is that over the past 
few years we have tried to make changes to our Criminal Justice 
Act program in order to control costs. Chief Judge Satterfield 
has done a magnificent job of working with his presiding judges 
to create staggered calendars and other sorts of efficiencies 
that have reduced waiting time which is, of course, a big 
expense to have lawyers sitting around waiting to have their 
cases heard or resolved. The Superior Court has also instituted 
in the Criminal Justice Act process in conjunction with lawyers 
practicing under our Criminal Justice Act, standards which when 
met are compensated at a certain level. So we are able to 
better forecast what our expenditures are and to make 
adjustments if necessary without compromising either the legal 
services that are being provided by the lawyers or the amount 
that you have appropriated for our fund.
    So there are some actions we have taken to become more 
efficient in our court operations. Some of the other advances 
that we have made in our ability to, for example, get a new 
case management system in the Court of Appeals that allows us 
to talk and interact and integrate with the Superior Court case 
management system has also eliminated the need for a lot of 
paper. It is now electronic, which has reduced some of the 
needs for our employees that we have now redeployed into other 
areas.
    So we are trying to work within the constraints that have 
been imposed upon us. But, as I said, we are so heavily 
operationally tied to having people meeting those individuals 
who come to the courthouse, we have not yet got the kind of 
population, despite our advances in electronic technology, 
where we are apart from the community. We are very much 
integrated within that community and people come to our 
courthouse every day in droves to seek the kinds of justice and 
support that they need. So to the extent that our personnel are 
affected and impacted long-term, it could have a very negative 
impact on our ability to provide the kinds of services that I 
think you and certainly the Courts want us to provide.
    Mr. Crenshaw. Thank you. Director Ware.
    Ms. Ware. Yes. I am going to invite Mr. Cliff Keenan, who 
is the newly appointed Director of the Pretrial Services 
Agency, to join me to speak to the impact on the Pretrial 
Services under CSOSA. I will speak specifically to the 
Community Supervision Program.
    We are finding that the sequestration has been quite a 
lesson learned for us in many ways, but not always very 
constructively, unfortunately. We are finding that we have to 
face hiring freezes, as other agencies have mentioned, and 
reallocation of our resources towards our highest risk 
offenders. Now, you might say that this is a good lesson 
learned because we now realize that the few resources that we 
have will have to go mostly to our riskiest offenders. So in 
order for us to maintain our focus on our mission, we are 
focusing more of those resources on our highest risk clients, 
which means that we will be placing low risk offenders on new 
innovations like kiosks. Under kiosk reporting, offenders don't 
have to report to a supervision officer every single day, they 
go in and they use a hand reader which is a biometric scan in 
order to report. And as long as they are maintaining their 
supervision conditions for employment, staying drug free and 
maintaining their appointments with the kiosk, then we can 
maintain them on this kind of technology.
    But those who are medium risk and maximum and intensive 
risk are the ones we are most concerned about. So we want to be 
sure that we provide them the level of supervision that they 
require, as well as the level of support that they require. For 
these we are finding that we are having to cut our treatment 
dollars, and mentoring programs which have been very 
successful. Additionally, we are supplanting as much as we can 
through partnerships with universities, potentially looking at 
using students to come in and help us with some of the 
treatment requirements. We don't know how successful this will 
be because it requires a very high level of expertise.
    We also have a lot of special initiatives that we have 
conducted with our law enforcement partners like the 
Metropolitan Police Department's (MPD) All Hands on Deck 
Project. They help us with our accountability tours when we go 
out to do offender home visits and those kinds of things. With 
the sequestration, we are probably going to have to cut back on 
a lot of the things that we have done traditionally in the 
evenings with our staff and with other law enforcement 
partners, due to our inability to pay staff overtime.
    So there are positive lessons learned in terms of 
reallocation of resources, but there are also very negative 
lessons learned in terms of the potential impact the sequester 
may have on the recidivism rate for this population, which we 
have done very well with over the last 10 years. Also 
diminishing the return on how well we have done with making 
sure that people graduate out of supervision and do well with 
their monitoring so that we are able to terminate them from 
supervision. We have had very good success in this regard over 
the past 10 years and we are hoping that that doesn't get 
compromised by the sequestration.
    I will turn it over to Mr. Keenan.
    Mr. Keenan. Thank you, Director Ware, and Chairman, good 
afternoon, Ranking Member Serrano, Congressman Quigley, 
Congressman Womack. Again, I am Clifford Keenan. I am the 
Director of the Pretrial Services Agency which is an 
independent entity within the Court Services and Offender 
Supervision Agency.
    As everybody has already alluded to, dealing with the 
sequestration from a law enforcement agency perspective is 
challenging because there is a balance that needs to be struck 
between making sure that we are doing what we are appropriated 
to do, but also that we are paying attention to the community 
safety and from our perspective to the needs of the court.
    Everything that we do in pretrial is based upon an order 
received by a judge to a defendant who is released pending 
trial. Everybody who has been arrested pending trial is 
presumed to be innocent so we don't have the same authority or 
autonomy to deal with them as CSOSA does with their probation 
or parolee population. We too believe that in addition to 
strong effective supervision, that providing pro-social 
interventions such as substance abuse treatment services as 
well as mental health treatment will go a long way to keeping a 
person from reentering the criminal justice system.
    So we too are looking at contract treatment reductions. We 
are reducing by 50 percent, which means that almost half a 
million dollars of money that we would otherwise be providing 
for substance abuse treatment for the defendant population will 
not be spent. We will bring that population in house and our 
own trained staff to be providing some of the group sessions 
that they should be receiving.
    We are also engaging in a limited hiring freeze. We are not 
going to be able to hire all of the positions that we are 
currently authorized to hire pending the sequestration. We are 
also taking reductions in IT, our training, as well as our 
laboratory costs.
    But I think most importantly from our staff perspective, 
the same as CSOSA, we are taking a 6-day furlough for all 365 
of our staff. We worked very closely with our union in terms of 
trying to implement this in a fair and consistent way, and what 
we agreed upon was that everybody, from me down to the newest 
program assistant, would be taking 4 hours per pay period over 
the course of the 6 months in order to get up to that 6-day 
furlough. It was not extremely palatable on the part of some of 
our staff, but they understand that there are very few choices 
that any of us have in this.
    So under the circumstances, we do think that we are doing 
the best we can in terms of balancing our obligations both for 
community safety and the court needs as well as doing what we 
can with the dollars that we have.
    Mr. Crenshaw. Thank you very much.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    Director Ware, you made a strong statement about the effect 
sequestration will have on public safety. I do not disagree. 
Can you tell us how the reductions in your budget, particularly 
the furloughs you will have to implement for staff, will affect 
safety in the Nation's capital?
    Ms. Ware. Yes. Thank you very much. Well, one of the things 
that CSOSA prides itself on is how well we have really done 
with putting in place best practices in the area of probation 
and parole supervision. As a result, we have been able to 
reduce the recidivism rate over the past 10 years. 
Additionally, the ability of folks to be able to complete 
supervision successfully has been increased. Our partnerships 
with our law enforcement partners such as the courts, the 
Metropolitan Police Department, the U.S. Attorney's Office and 
others, including the U.S. Parole Commission, have been very 
successful in addressing the highest risk offenders in the 
District of Columbia.
    We have implemented a number of tools, including the use of 
GPS, which is global positioning system, to monitor offenders 
and serve as a sanction tool for those offenders who are under 
our supervision. All of those things that we have been able to 
put in place over the years have really benefited the District 
of Columbia, the visitors here, as well as those people who 
work here and live here. However, we are really concerned right 
now because we are slowly seeing some shifts in the recidivism 
rate among our offender population and we are concerned that 
this shift, which is very small right now, may increase to the 
extent that we will have to look at other ways to sanction 
those under our supervision more. This may mean that they will 
continue to go back to prison rather than us being able to 
maintain them effectively in the community and help them to 
become stabilized and to become productive citizens again.
    Mr. Serrano. You said earlier that you reduced the number 
over the last 10 years you said, but now you see a shift 
recently?
    Ms. Ware. We are starting to see a slow shift going upward 
from 2010, yes.
    Mr. Serrano. So you are concerned that these cuts will just 
add to that.
    Ms. Ware. Yes. 2010 was when we started seeing our budget 
flattening, and so we are concerned and we are watching and 
tracking it very carefully to try to use every innovation that 
is at our disposal. We want to utilize all the tools that we 
can come up with within the resource allocation that we have in 
order to make sure that the positive trends that we have been 
able to implement over the last decade, will not be reversed.
    Mr. Serrano. Right. As you know, we not only deal with the 
impact of the sequester, but we also have the issue of a 2013 
continuing resolution for the remainder of the year. Are there 
any recommendations or policy changes that you would like for 
the committee members to consider that may help your agency 
mitigate the impacts of both of these areas?
    Ms. Ware. Absolutely. One of the things that we would like 
the committee to consider is to afford CSOSA the opportunity to 
retrieve 50 percent of its end of the year unspent funding, 
which is often very difficult for us under a continuing 
resolution. It means that we don't have a full budget year to 
spend the money that we need to be able to spend in order to 
meet the goals that we placed on our agency. So part of our 
request would be to allow us to retrieve 50 percent of the 
funds that are unspent at the end of each fiscal year. I think 
we submitted that as a request.
    Mr. Serrano. Before you spoke about your working 
relationship with the courts and with other groups. How about 
the working relationship with the community college to assist 
offenders with furthering education skills? Maybe the judges 
can speak to that too, if there is any relationship that we 
need to know about or something that needs to be better.
    Ms. Ware. Well, we definitely would like to improve it. We 
had a very good working relationship with the community college 
here in the District of Columbia, UDC. The issue that came 
before us was the cost of tuition for our offenders, and so we 
would have to look at ways to assist them in coming up with the 
requisite costs even though it is not the same level of funding 
required for them to enroll in the community college. 
Nevertheless, they still have to come up with some level of 
funding in order to participate, and at one time we were able 
to supplement that, but now we are not able to do that as well.
    Mr. Serrano. All right. Is there a relationship between the 
court and the community college, or is that strictly something 
that they deal with?
    Ms. Ware. It is probably on our side.
    Judge Washington. Yes, it is more on the CSOSA side than 
the court side. Of course, we remain open to any discussions or 
conversations about how we can assist them and they can assist 
us. But we have not had any formal conversations about that.
    Mr. Serrano. All right. Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you, Mr. Serrano.
    Mr. Womack.
    Mr. Womack. A couple of questions for the judge. One of 
those would be I noticed in your testimony that the median time 
on appeals has been reduced from 500 days, thereabouts, 
whatever the number was, down to about 352. That is still the 
better part of a year. That is a long time. I am a big believer 
that justice delayed is justice denied. So why is there still a 
lengthy process there?
    Judge Washington. That is a very complicated question, but 
I appreciate it, Congressman. We have in the District of 
Columbia, as you know, no intermediate court of appeals, which 
means that all of the cases that are decided in the Superior 
Court, and you heard the numbers, have direct appeal rights to 
the Court of Appeals, except for small claims cases where they 
have to file an application for an allowance of appeal. We 
still have to decide that. But still, it is not as cumbersome a 
process.
    We are unlike all of the other court systems in the country 
that have only two levels, no intermediate court of appeals. 
Their jurisdiction is almost 95 percent discretionary, so even 
though they don't have an intermediate court of appeals, they 
can decide how many cases to hear and they dismiss the others 
by denying the appeal.
    We, as a matter of right, have jurisdiction over all of 
these cases and we have prided ourselves on giving reasons for 
every decision that we reach. So even in those cases that are 
ultimately dismissed or remanded with an order, we tend to 
include information advising the litigants as to why their case 
has been denied or dismissed, not a one word ``dismissed'' or 
``denied'' or ``affirmed'' depending on the perspective as it 
comes to us or after we are finished with it.
    So what happens is our cases go through a process which is 
necessary for us to get the information, the record--which has 
now been sped up through our case management system--and 
briefing from the lawyers, and it is the sheer numbers. Last 
year we had over 2,000 appeals filed in our court, and whenever 
you have that number, it is just going to take time. It is just 
part of the process.
    It reminds me that in 1980 the Congress actually passed a 
bill creating an intermediate court of appeals, recognizing 
that handling that many appeals as a matter of right and giving 
reasoned decisions, reasoned opinions for each of our 
decisions, was a burden that was unlike many courts in the 
country. It didn't pass the Senate. But the bottom line is we 
are trying to implement efficiencies to make up for the lack of 
that opportunity to have error correcting done by a mid-level 
court, and then for us just to look at the larger 
constitutional and other issues which face the citizens of the 
District of Columbia.
    So that is the larger overriding picture. It doesn't mean 
we can't do better at case processing. We are making every 
effort to do that. We have implemented any number of reforms. 
We have screened cases differently and are aggressively using 
senior judges more than we have in the past. We asked a couple 
of years ago for an appropriation for appellate mediators. We 
don't have an appellate mediation program that is ongoing. We 
have piloted two different ones trying to do it without 
resources, ultimately figuring that we could not continue to 
model a haphazard kind of ad hoc program and actually make it 
effective, to try to take some cases that may be amenable to 
mediation out of the calendar, thus giving us the opportunity 
to get to more cases.
    So we are making efforts to reduce the time. I don't 
disagree with you. We would all love for the time on appeal to 
drop even lower, and we will continue to make changes.
    Mr. Womack. Percentage breakdown on criminal versus civil 
on the docket, what are you looking at?
    Judge Washington. Criminal cases make up probably 60 
percent of our caseload. Civil cases, family cases, make up the 
other 40. It may even be 55-45.
    Mr. Womack. And you mentioned the small claims. What is 
your threshold amount for filing small claims?
    Judge Washington. Threshold amount for small claims. $5,000 
dollars, I believe.
    Mr. Womack. Is that adequate? It sounds a little low for 
this area.
    Judge Washington. You know, the----
    Mr. Womack. Lawyers would probably disagree with me.
    Judge Washington. I have to admit, Congressman, I haven't 
given it much thought. I don't know if it has been part of any 
discussion that Chief Judge Satterfield may have had, but I 
will defer to him on that question.
    Judge Satterfield. Thank you. It is a low amount and we are 
getting inquiries from lawyers who want us to raise that amount 
to be more consistent with some of the other jurisdictions in 
the metropolitan area. That is something that we look at over 
time and it is something that helps us move things along 
faster. It is a consideration.
    Mr. Womack. And I know I am going to run out of time here 
in just a minute, I am curious on both sides, both on CSOSA and 
on the court side, nowhere in the testimony did I hear what we 
are doing in this multi-cultural setting that we find our 
ourselves, and from Arkansas it is pretty profound there, on 
translation services, and that is costing a substantially large 
amount more money every year for the individuals that are 
coming through our court system that English is not a primary 
language. So speak to me on what we are doing as far as 
translation goes and the pending costs of it.
    Judge Satterfield. Well, I don't have the exact cost 
figure, but I know that we are doing a tremendous amount of 
activity in that area because we provide that resource to 
anyone that needs it so that we don't have any due process 
violation.
    Mr. Womack. How many linguist services do you have to have 
available?
    Judge Satterfield. I am sorry?
    Mr. Womack. How many different linguist services do you 
have to have? How many different languages?
    Judge Satterfield. Well, there are five that are 
predominant in our demographics, but there are many, many more. 
We are fortunate here in the District to be able to provide 
interpretation to just about anyone because the State 
Department is here.
    We are able to find certified, trained interpreters who 
want to do it. And we are starting to access things like 
interpreter services electronically in order to provide that 
service. Because we are federally funded, we are required by 
executive order to make sure that we provide it to anybody in 
need. Even for the Donald Trumps of the world, we have to 
provide it. If he came in here and said I want you to pay for 
my interpreter, we would have to make sure that that is done if 
it is going to impact that case because----
    Mr. Womack. Well, sometimes he speaks in a language I don't 
understand too.
    Judge Satterfield. But he's just an example. Some folks 
have the ability to afford it and some folks do not. I am 
sorry, I have just been handed a number. The total number in 
2012 is 8,719 times we had to send interpreters to a courtroom 
to interpret in a particular case.
    Mr. Womack. Ms. Ware.
    Ms. Ware. On CSOSA's side we pride ourselves with being a 
very diverse workforce. We have done that intentionally so that 
we can attract folks from various backgrounds into the 
workforce so that they can serve not only as our community 
supervision officers and in other capacities, but also so that 
they can provide a well-rounded approach to supervision to 
folks from different backgrounds. That being said, of course, 
we don't have every single cultural and ethnic group on our 
workforce, but we do have a Diversity Council that has been put 
in place that both Cliff and I are the co-chairs of so that we 
can promote diversity across the workforce.
    We also have an online service that provides interpretation 
for folks who come before us or come before our agency who need 
special interpretation services, but I don't have the cost for 
that right now. I will have to get back to you on the cost of 
that. But that is pretty much how we approach it.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0953A.035
    
    Mr. Womack. A couple of final questions and then I will 
yield back. You mentioned GPS. I am assuming ankle monitors, 
you do some type of ankle monitoring?
    Ms. Ware. Yes, we do.
    Mr. Womack. Okay. Drug courts?
    Ms. Ware. Yes.
    Mr. Womack. Effectively?
    Mr. Keenan. We believe it to be effective, yes. We did a 
study last year and we made some changes to the program. We 
have reinstituted or I guess reinvigorated the staffing which 
is common throughout drug courts where the defense attorney, 
the judge, the defendant and the pretrial service officer get 
together in order to identify problems. The court itself I 
believe is going to be doing an assessment this year of the 
Drug Court Program as well. But ours is one of the longest 
standing drug courts.
    Mr. Womack. My experience has been that those are very 
effective alternatives to the type of jurisprudence that we see 
in our traditional court system.
    Mr. Chairman, I would just say that given the effects of 
sequester on top of the effects of the economy and a lot of 
other things that drive our crime rate higher, that the 
manifestation of mental illness and the manifestation of drug 
dependency causes so many other problems across the spectrum, 
and I would just hope that these folks and others like them can 
do whatever it takes to address some of those underlying issues 
so that they don't manifest themselves in a lot of other 
extraordinary ways that do rise to some very violent type 
outcomes.
    With that, I appreciate the panel today. I don't envy your 
work, and thank you so much for your time and your testimony 
today, and I yield back.
    Mr. Crenshaw. Thank you, Mr. Womack.
    I now turn to Mr. Quigley.
    Mr. Quigley. Thank you, Mr. Chairman. I thank the panel as 
well.
    Judge Washington, my experience at 26th and California is 
that a downturn in the economy at the same time as cuts in 
budgeting for courts is a potent and dangerous combination. In 
Cook County we had more people get in trouble paying their 
bills, credit card bills, their rent, their mortgages, and at 
the same time that combination is fewer of them could afford an 
attorney to help them deal with those issues. Obviously on the 
criminal side we tended to see an up-tick in criminal activity 
and again more people in need of the public defender's office. 
Is this a similar issue here?
    Judge Washington. Congressman Quigley, it is. We see such 
an increase, and I spoke about it very quickly when I was 
talking about self-represented litigants, pro se litigants on 
the civil side. We have so many more people. We have had a 30 
percent increase in the last couple of years in those 
individuals who are using our Family Court resource center, for 
example. The landlord-tenant resource center numbers are huge. 
Thousands and thousands of people are going through our self-
help centers. Now, of course, with foreclosures, we have a 
calendar that has been established in the Superior Court. I 
probably should let Chief Judge Satterfield talk more about it, 
but a calendar in the Superior Court that is focused on those 
kinds of cases. We have a consumer law self-help center.
    What we have done is we have decided that the best thing we 
can do in this era of diminishing budgets and resources is 
increase our collaboration with legal service providers, 
voluntary pro bono lawyers from the bar and others who have 
stepped up and have helped us by manning those centers that we 
are establishing close to or within court facilities. We can 
provide the infrastructure, the space, the tables, maybe some 
telephones, things like that, but, of course, we can't provide 
the legal services. We look to our bar to do that. And we have 
increased the number of opportunities for pro se litigants to 
come in and at least get some assistance from lawyers who can 
get them started.
    One of the other things that we did in this area is that 
we, as I said, recently amended our Code of Judicial Conduct 
because judges were reluctant to take on the role because they 
were concerned about how it could be viewed. What we did was 
thought it through and came up with ways, suggestions, of how 
judges can better hear self-represented litigants, give them an 
opportunity to be heard.
    Mr. Quigley. If I could ask how that is working, because I 
can see the other side complaining that the judges are 
interjecting themselves into the process and perhaps advocating 
or strategizing.
    Judge Washington. No, we are very careful about that. We 
gave very specific examples of the types of things that can be 
done. A lot of it is referring litigants to other places, but 
also it is just explaining court processes, demystifying how 
the court system works. Not the substantive areas, not offering 
them suggestions on defenses, for example, but saying this is 
what is required when you come to court. This is the kind of 
thing that we need to hear in order to resolve the case fairly.
    We are very concerned and remain concerned about the 
judges, and we have had a lot of training. But I will let Chief 
Judge Satterfield also answer that.
    Judge Satterfield. I just wanted to add something because I 
think you hit it that the attorneys would be concerned. Our bar 
in D.C. has asked us to do more in that area, because the 
amount of time it took to get through some of those cases with 
self-represented people were backing up their ability to 
represent their clients and costing their clients more money 
because of the waiting that they had to do as we took our time 
obviously to make sure there was adequate process and access. 
So they have worked with us on things that could be said and 
done and how to work with self-represented litigants to be 
efficient and fair and move forward. So they have not been 
critical of us. They have actually worked with us in trying to 
improve that area.
    Mr. Quigley. On the criminal side, who can speak to the 
increase in perhaps cases, but also the need for public 
defender activity?
    Judge Satterfield. Well, we are very pleased with the 
public defender service that we have. We think they are very 
top notch and they do a good job and they take most of the 
serious cases. We are fortunate to have funding through 
Congress, obviously, for the remainder of the defender services 
that are necessary. Crime has sort of remained steady for a 
while. The thing about that is you never know when something is 
going to be the next thing. It was crack cocaine here in the 
nineties and so forth. Now, as the country is starting to look 
at synthetic drugs and things of that nature, we don't know how 
that will impact our communities until it really gets to our 
communities.
    Mr. Quigley. What is the percentage of cases with public 
defenders? Is that funded in the same manner? Is sequestration 
affecting that?
    Judge Satterfield. Yes. They were absorbed in CSOSA's 
budget. It was an odd kind of arrangement. But they are 
affected by the sequestration. What I have been told by the 
Director of the Public Defender Service is that she is going to 
do what she can to make sure that all of her clients are 
represented in court fairly and competently. So I don't know 
quite the impact that is going to have. I know she is reworking 
things, like we have done, contracts and other things, to try 
to reduce any furloughing that she would have to do, but I 
don't know the specifics of her plan.
    Ms. Ware. The Public Defender Service has a separate line 
item budget and so they are responsible for handling the 
sequestration just as we all are. It is my understanding that 
all of us are affected similarly in terms of trying to manage 
the sequestration. But as Chief Judge Satterfield said, that is 
something that you would probably need to sit down with the 
Public Defender Service to discuss, because they have a 
separate budget that they handle and we don't have any control 
over their budget.
    Mr. Quigley. Thank you, Mr. Chairman. I yield back.
    Mr. Crenshaw. Thank you. Mr. Diaz-Balart, do you have any 
questions?
    Mr. Diaz-Balart. No, thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you. A couple more questions. We have a 
little more time. I wanted to ask you, Judge, you mentioned in 
your opening statement about some of the capital improvements 
you are making, and I know we provide about $40 million a year 
for capital improvements, and as I understand it you have a 
master plan. So I would like to hear a little bit about that, 
about how you decide what the priorities are in terms of 
capital improvements. Do you do that internally, or does 
somebody come in and help you assess all your capital needs? 
Explain how you make those priority decisions. How is that 
working out? Is there a timeline or a total cost line? Just 
kind of share with us that master plan for capital 
improvements.
    Judge Washington. Okay. We developed a master space plan 
looking forward, trying to determine what our needs are 
currently and were going to be, and we did this almost 10 years 
ago now. We then created, after the master space plan was done, 
a master plan for the space around Judiciary Square, all of the 
buildings that were part of Courts' inventory but had been 
shuttered because we did not have the resources to keep them up 
over the years.
    That had caused us to retreat into our newest building, 
which was the Moultrie Building, which is, of course, now a 
building that is nearly 40 years old. But still we had put a 
lot of services in there. So we knew we had to get back out of 
that building because the building was becoming overcrowded.
    We did the master space plan and determined what our needs 
were. That is a work in progress. Right now, for example, we 
are looking at how our probate and tax operation is going to 
address the increasing needs of a demographic that is getting 
older and older. At the time we were looking at increasing the 
number of opportunities to have cell blocks attached to 
courtrooms because we had so many criminal cases. What we have 
done is tried to make courtrooms that could be used for both 
purposes. So we equipped courtrooms with cell blocks even 
though they are being used for civil trials now, because there 
has been a decrease in criminal cases, and we are looking 
forward.
    We have also increased the opportunity for there to be 
self-help centers, looking at the demographics of self-
represented litigants. So we tried to plan those things into 
our futuristic view of what we wanted Judiciary Square to look 
like. Then we looked at technology, IT, multi-door mediation, 
things like that, and tried to figure out how we could place 
them. So those priorities have driven to some degree how we 
have gone out on the Square and renovated buildings.
    The big driver, however, was our creation of Family Court, 
and that was a major and significant reorganization of our 
court building. Moultrie was housing criminal, family, civil at 
the time, as I said, and there was a lot of concern about our 
Family Court and the young kids and everyone having to move 
through the courthouse, all over it, in order to get services, 
and coming into contact with individuals who were part of the 
criminal justice system.
    So one of the things that was driving us was the 
consolidation of that Family Court, ultimately getting it all 
in one place with a separate entrance and having the support 
systems from the District Government co-located to make that 
worthwhile. And that is what we have been working towards.
    But we had to get Moultrie decluttered so that we could go 
back in and reformat the space in a way that made that 
possible. We have done it in a way that has limited the contact 
that any family coming in there for typical Family Court 
matters would have with other parts of the court system, but we 
haven't completely consolidated it by bringing in the juvenile 
probation, in-court services and others to that space. And that 
is what this new addition that I talked about is going to do, 
it is going to create the additional space.
    So there have been a number of drivers. It is something 
that we look at when we look at demographic changes. In fact, 
we are about to have a joint managers/judges meeting in which 
we are going to be presented with updated statistics about the 
community demographics so that we can make even better 
strategic decisions about where to put our resources.
    So there was a master space plan. We knew what our needs 
were going to be based on the projected case filings and we 
knew what kind of services were going to be impacted at the 
time. As we have gone along through our strategic planning 
process, we have relooked at the demographics and we are making 
other decisions. But the space hasn't changed because the 
increase in filings hasn't changed. Ultimately we will need the 
space, and they are already telling us that we will have 
greater need for more space as they have updated the space 
plan. But we are just trying to make sure that at least we get 
to the point where we believe we can effectively administer 
justice with what we have.
    Mr. Crenshaw. Well, in that regard, we also provide 
millions of dollars in terms of IT every year. I know that is 
kind of a whole new area, particularly in the judicial circles. 
I wonder how that is working? Some agencies come before us and 
ask for a lot of money for IT and it doesn't always work out 
saving money. Sometimes it actually costs more money because 
they are not really utilizing the IT.
    So can you comment, because I would think that as you have 
more technology, then I don't know if that reduces a certain 
amount of need for space, things like that. Do you have any 
facts or figures? Can you tell us how it is impacting you all? 
Is that being managed well? Does that help coordinate cases? 
How does that all work out in terms of saving money in the long 
run?
    Judge Washington. Well, I don't have facts and figures for 
you on the impact of the IT developments. I can tell you about 
efficiency. One of the key advantages which is helping, as I 
was remarking to Congressman Womack, to drive our time is this 
new technology that allows our case management systems to talk 
and allows us to get not only electronic digital transcripts 
but the case record. That has been important. We have also 
increased our efficiency by utilizing remote access technology 
like iPads. Our judges have iPads now. They are able to sign 
orders and work on cases even when they are not at the court. I 
don't know whether it is good or bad, we work 24 hours a day 
now it seems, but that is one of the things that has increased 
our efficiency and allowed us to work cases more quickly.
    Of course, cybersecurity, especially in the courthouse, is 
critical. So we have increased our technology which has helped 
with efficiency. It has also created challenges with 
cybersecurity issues that we have to continually monitor. So in 
terms of its impact on the court, I think it has been a boom to 
us in terms of that.
    The cost in terms of how much it has saved us I could not 
tell you, but I can say this: We really see long-term, assuming 
we can continue to utilize the technology in the way we are 
starting to do it, through our access to our web portals, 
opportunities for people to get information and access to the 
court without having to come perhaps to the court as frequently 
as they had before. There is more and more that we can do 
online.
    For example, we established a remote location out in one of 
the quadrants of the city in a hospital where domestic violence 
victims would go to have their injuries treated. We were able 
to remotely issue protective orders in order to try to allow 
those people to get the service they need, get the protection 
they need, and at the same time be able to address not only 
their physical but their emotional well-being. Victims can set 
themselves up through other services the District offers to 
protect them more beyond the paper, beyond the order that the 
court issues. So I think that is one way. I am sure there are 
others.
    I don't know if Chief Judge Satterfield----
    Judge Satterfield. Just to add briefly, a lot of 
jurisdictions are doing E-filing, which we are doing, in most 
of our divisions in Superior Court, and expect to have it in 
all. You expect to see some cost savings there because people 
don't have to come down, they don't have to engage the Clerk's 
office, they don't have to go through security to get into the 
building. But you also have to be mindful that a portion of the 
population, does not have the kind of access to be able to do 
E-filing even. So as you go forward in those areas, you have to 
be mindful that you are not cutting off folks from access to 
the court. But we are moving more in that direction and have 
been for some time.
    Mr. Crenshaw. Thank you very much.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. I just have a couple 
more questions.
    Judge Washington, your budget has been relatively flat for 
3 years now. Can you describe some of the measures you have 
undertaken in these tight fiscal times? I know you already cut 
drug treatment and mental health programs, which is not a good 
thing, but we understand that is what had to be done. What 
other costs have been cut from the budget in recent months?
    Judge Washington. Wow, where to start. What we have done in 
terms of those costs, as I said, we tried to keep them out of 
the case processing area to the extent we can. There are 
contractual services, like you suggested. There are services 
that impact on the safety of the public who are going into our 
buildings and our employment staff. I mean everything from 
rodent control to maintenance. Anything we can cut that doesn't 
impact on our litigants who have or are seeking our service. So 
that is a wide range of contracts that we have eliminated.
    We have done a lot of, as I said, holding vacancies open in 
order to achieve savings, and then what we have done is we have 
cross-trained employees. So now we have employees who are able 
to go over and fill in to provide services. Is it the same 
quality as having somebody there full-time? No. But we are 
saving money in that respect.
    We have slowed down our contracts for our capital projects. 
We have ceased moving forward as quickly with our projects as 
we can, as we were planning to and hoping to, and we can do 
that for the convenience, of course, of the government, to keep 
that project going, but at a much slower rate. We don't want to 
lose the contractors and we don't want to lose the opportunity 
to hopefully long-term enact some savings.
    So I think those are the major things that we are doing 
right now to address the reduction in our budget. And again, we 
are trying to use technology to increase the access people have 
right now. The Court of Appeals is in the process of developing 
its electronic filing in order to limit the number of 
individuals we are going to have to put back on our payroll at 
the time if we are able to increase back or put our staff back 
into some viable size. So I think we are looking ahead trying 
to plan, but at the same time the cuts have been, as I said, in 
the contractual services and in the vacancies.
    Mr. Serrano. And moving towards the more use of 
electronics, is that by training, retraining folks you have on 
board now, or finding new folks, or both?
    Judge Washington. I think it is both. On the one hand as we 
do move towards increased use of technology, the job 
requirements change, and through attrition we are looking at 
reforming those positions. Through, the monies we did receive 
that were targeted toward helping us with HR and trying to 
increase the robustness of our HR department, we have put in 
place ways of tracking applicants for jobs that has made it 
much easier for us to get really high quality individuals into 
those positions, people who have some of these backgrounds that 
we need.
    So we are looking at people, we are looking at retooling, 
reformatting, I am not sure what the right word is, but our HR 
department is looking at these positions as they come open, 
looking at how technology can be used to enhance them, and also 
looking at how other efficiencies might increase with the 
hiring of different types of personnel. So, yes is the short 
answer.
    Mr. Serrano. Sure. And that was part of my question I guess 
before about relationships you say with law enforcement and so 
on, but also relationships with educational institutions that 
may be able to provide both advice, guidance and future 
personnel. We all know there are a lot of folks graduating who 
can't seem to find work. So that is related.
    One last question, Mr. Chairman. Director Ware, with 
passage of the Second Chance Act, there now seems to be a 
heightened importance of the importance and social value of 
supporting offender reentry efforts and programs. Despite this 
renewed national focus, many of the men and women returning 
from prison continue to face some very serious barriers in 
terms of unemployment, access to housing and substance abuse.
    Are there unique challenges that your parolee and 
supervised population confront when reintegrating back into 
communities here in the District of Columbia?
    Ms. Ware. Yes.
    Mr. Serrano. I know that is a question you could talk about 
for 3 hours.
    Ms. Ware. I will try not to do that to you. But the short 
answer is yes, and I am glad you brought that up again because 
one of the things that we found is that if we are able to 
stabilize them in those three areas, housing, treatment and 
employment, then we have a much, much greater success rate with 
keeping them from reoffending.
    Mr. Quigley mentioned some of the things that really help 
to stabilize this population. One of the best practices that we 
have been observing is a practice from out of Chicago called 
the Safer Foundation. I don't know if you are familiar with 
them, but they do a yeoman's job of getting this population 
employed. It is one of the practices that we were hoping to be 
able to bring to the District of Columbia as a model, because 
we feel that if we could increase the employment for our 
offender population, we would decrease the recidivism rate 
substantially. As you already mentioned, even those folks who 
are graduating from college are having a difficult time finding 
jobs, so our population definitely has a very difficult job. So 
we would have to have a unique approach to getting them 
employed, and the Safer Foundation has very unique approaches 
and a great success rate. Again, we would like to bring to the 
District of Columbia.
    That being said, 32 percent of our employable population is 
unemployed. So we have people who actually have graduate 
degrees, who actually have a GED or high school diploma, but we 
can't get them jobs. We also have an increasing percent of our 
population who have behavioral health needs, as I mentioned 
earlier, substance abuse, co-occurring disabilities, substance 
abuse and mental health, which is a very, very prevalent in 
this population, as well as physical health challenges.
    So there are a number of things that, as Mr. Womack 
mentioned earlier, our ability to address them, we have found 
that that has really been the hallmark of our success with this 
population, and I am sure Cliff would say the same.
    So we are desperately trying to make sure that we manage 
our mission in a responsible manner by using every resource 
available to us to continue to stabilize this population and to 
give them the services that they need, but also to hold them 
accountable, and I don't want to diminish that part of our 
responsibility as well.
    With that, we use things that are sanctioning tools like 
GPS that somebody mentioned and Halfway Back, which is a step 
back to short-term jail stay. But some of those options that we 
once had available even in our sanctions, will now have to be 
looked at again in terms of how well we can resource those 
opportunities.
    Mr. Serrano. As a follow-up, Director Ware, we know all the 
strides we have made in dealing with females in our society, 
making society more responsive and fairer in so many ways, 
certainly during my lifetime. But as it has to do with female 
offenders, are there still special challenges they face and 
what are we doing about that?
    Ms. Ware. Thank you for that question. Yes, there are very 
unique challenges that females in the criminal justice arena 
has to face. Much of it has to do with long-term trauma that 
have never been addressed, abuse, of course parenting issues. 
So as a result we have over the last few years put in place 
several special initiatives focused on our female population.
    We have a unit within our residential sanctions program for 
females, specifically focusing on their unique needs and 
addressing some of the behavioral health issues that they have 
which are very, very prevalent within the female population. We 
also have three supervision units that are specifically trained 
to work with women.
    We have done that because we find that historically, as you 
know, the probation and parole approach has been focused on men 
and has really rarely taken into account some of the of the 
unique needs of women. But that is now changing and more and 
more nationally we are having conversations about the unique 
needs of women. So CSOSA has been in the forefront of those 
changes, and we have done what I believe to be a really good 
job of addressing some of those unique needs, and we have been 
sharing some of our lessons learned with others around the 
country.
    Mr. Serrano. Well, that is my last question. I want to 
thank you, Mr. Chairman. And I want to thank you for your 
service. We know just how difficult it must be, the work you 
do. In this society there are some people who believe in one 
strike and you are out, not three. So what you do every day to 
kind of give these folks a second chance is something that we 
really appreciate. Thank you.
    Ms. Ware. And thank you for your support over this last 
decade for CSOSA. I appreciate that.
    Mr. Crenshaw. Mr. Diaz-Balart.
    Mr. Diaz-Balart. No questions.
    Mr. Crenshaw. Thank you all for being here. Thank you for 
what you do every day to protect the lives of the people that 
live here, that work here, that visit here. I know these are 
tough times for everybody, and I really appreciate the work 
that you do under these difficult situations in trying to do 
things more efficiently and more effectively than ever before.
    With that, this hearing is adjourned.

    [GRAPHIC] [TIFF OMITTED] T0953A.036
    
    [GRAPHIC] [TIFF OMITTED] T0953A.037
    
    [GRAPHIC] [TIFF OMITTED] T0953A.038
    
    [GRAPHIC] [TIFF OMITTED] T0953A.039
    
    [GRAPHIC] [TIFF OMITTED] T0953A.040
    
    [GRAPHIC] [TIFF OMITTED] T0953A.041
    
    [GRAPHIC] [TIFF OMITTED] T0953A.042
    
    [GRAPHIC] [TIFF OMITTED] T0953A.043
    
    [GRAPHIC] [TIFF OMITTED] T0953A.044
    
    [GRAPHIC] [TIFF OMITTED] T0953A.045
    
    [GRAPHIC] [TIFF OMITTED] T0953A.046
    
    [GRAPHIC] [TIFF OMITTED] T0953A.047
    
    [GRAPHIC] [TIFF OMITTED] T0953A.048
    
    [GRAPHIC] [TIFF OMITTED] T0953A.049
    
    [GRAPHIC] [TIFF OMITTED] T0953A.050
    
    [GRAPHIC] [TIFF OMITTED] T0953A.051
    
    [GRAPHIC] [TIFF OMITTED] T0953A.052
    
    [GRAPHIC] [TIFF OMITTED] T0953A.053
    
    [GRAPHIC] [TIFF OMITTED] T0953A.054
    
    [GRAPHIC] [TIFF OMITTED] T0953A.055
    
    [GRAPHIC] [TIFF OMITTED] T0953A.056
    
                                         Wednesday, March 20, 2013.

                             THE JUDICIARY

                               WITNESSES

HON. JULIA S. GIBBONS, CHAIR, COMMITTEE ON THE BUDGET, JUDICIAL 
    CONFERENCE OF THE UNITED STATES
HON. THOMAS F. HOGAN, DIRECTOR, ADMINISTRATIVE OFFICE, UNITED STATES 
    COURTS

                 Chairman Crenshaw's Opening Statement

    Mr. Crenshaw. Well, it is 10 o'clock, so I will call the 
hearing to order. Good morning everyone. Judge Gibbons, Judge 
Hogan, thank you for appearing before the subcommittee today. 
Judge Gibbons, this is your ninth time that you have come 
before our subcommittee, and so we appreciate the fact that you 
are here. Welcome back to Judge Hogan. It is only his second 
time. But we are glad you are both here.
    Having a fair and independent Judiciary is a cornerstone of 
our democratic system of government. The job of the third 
branch is one of great importance, responsible for resolving 
criminal, civil and bankruptcy disputes. The courts must have 
the trust and respect of all our citizens. In addition, the 
Judiciary's probation and pretrial service officers perform a 
critical public safety mission by supervising more than 200,000 
offenders and defendants living in our communities.
    I want to applaud the Judiciary for submitting its fiscal 
year 2014 budget request in a timely and sensible manner. It is 
disappointing and a little bit frustrating that the Executive 
Branch has yet to submit its budget, but I think it is time 
that they take seriously their obligation to the budget 
process. Congress must do its work, and we on the 
Appropriations Committee are committed to writing thoughtful 
spending bills in regular order. We appreciate that fact that 
you at the Judiciary are also committed to your role in this 
process.
    As you know, the Federal Government continues to operate in 
an environment of limited resources; however, we are going to 
try to ensure that you have the resources needed to accomplish 
your important mission.
    Over the past few years, you and your staff have worked 
closely with us to ensure that the Judiciary receives increases 
to address only your most critical needs, and I thank you for 
your efforts to reduce costs during these difficult times.
    The Judiciary's budget request this year proposes an 
increase of $180 million, or about 2.6 percent above last 
year's. And I know that this is one of the smallest requests 
that you have ever made in the past few decades, and it is 
still going to be tough because of the fiscal situation we find 
ourselves in. So I want to work with you and our ranking 
member, Mr. Serrano, to identify the savings that you are able 
to make and yet still provide--we want to make sure the courts 
have the resources necessary to fulfill your constitutional 
duties.
    So with that, I would like to recognize my good friend and 
colleague, the ranking member, Mr. Serrano.

                    Mr. Serrano's Opening Statement

    Mr. Serrano. Thank you, Mr. Chairman.
    And we thank you for being before us, Judge Hogan you for 
the second time. And next year Judge Hogan you get a 10-year 
pin. It is something the Chairman is going to start doing 
pretty soon.
    Judge Gibbons and Judge Hogan, you come here at a difficult 
time for the Federal judiciary, in large part due to 
sequestration. Most people do not realize that when we discuss 
the Federal Judiciary, we are not just talking about funding 
for judges and trials, we are also discussing funding for 
Federal public defenders, for court security, for free trial 
services, and for probation services for those released from 
Federal prison.
    The programs run by our Federal Judiciary really extend 
outside of the courtroom, which means that cuts to the 
judiciary's budget do not just affect litigants, but many of 
our communities as well. Unfortunately, as a result of 
sequestration, the Federal Judiciary will have to absorb an 
almost $350 million cut to your fiscal year 2013 budget.
    In a letter sent to Chairman Crenshaw and to myself, Judge 
Hogan detailed the negative impact that these cuts will have on 
the Federal judiciary's operations. Among other things, there 
will be a 20 percent cut to drug treatment and mental health 
programs, there will be a 30 percent cut in court security 
funding, there will be fewer probation officers, and there will 
be longer delays in cases going to trial.
    I know a lot of members like to think of sequestration as 
an abstract math problem, but it is one that has real world 
impacts. As I told Justices Kennedy and Breyer when they 
appeared before the subcommittee last week, I am particularly 
worried about our Federal public defender program, where 
layoffs have occurred prior to sequestration and show no signs 
of abating.
    Additional funding reductions caused by the sequester will 
undoubtedly force further difficult choices and undermine the 
ability of our Federal public defenders to do their utmost to 
help their clients. I am concerned that we are moving towards a 
troubling scenario in which our constitutionally mandated duty 
to provide eligible criminal defendants with legal counsel is 
substantially obstructed by a lack of funding.
    Our judicial system is the envy of countries around the 
world because of its fairness, its efficiency, and the access 
we all have to it. I hope that those notable features of our 
system are not undermined by the sequester. Unfortunately, I am 
fearful that they will be.
    Judge Hogan and Judge Gibbons, thank you for being here 
today. I look forward to discussing the sequester and other 
issues with you.
    Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you.
    Mr. Crenshaw. So now we will recognize Judge Gibbons. If 
you could make an opening statement, keep it in the 
neighborhood of 5 minutes. Your written statement will be 
included in the record.

                    Judge Gibbons' Opening Statement

    Judge Gibbons. Thank you. Chairman Crenshaw, Representative 
Serrano and members of the committee, I am Julia Gibbons, a 
judge on the Sixth Circuit Court of Appeals and Chair of the 
Judicial Conference Committee on the Budget. As has been 
mentioned, with me is Judge Tom Hogan, who is the Director of 
the Administrative Office of the U.S. Courts.
    Mr. Chairman, we appreciate your taking the time to meet 
with us last week in advance of the hearing. As the chair 
alluded, I have been here several times, and I come before you 
today more concerned than ever about the financial situation 
facing the third branch of government and how that will impact 
our ability to properly administer justice. The 5 percent 
across-the-board sequestration cuts that took effect March 1 do 
reduce judiciary funding by nearly $350 million below current 
levels. These cuts will have a devastating impact on Federal 
court operations nationwide.
    We believe we have done all we can do to minimize the 
impact of sequestration, but a cut of this magnitude, 
particularly so late in the fiscal year, will affect every 
aspect of court operations and impact the general public, as 
well as individuals and businesses looking for relief in the 
courts.
    In February, the Executive Committee of the Judicial 
Conference finalized a number of emergency measures to deal 
with sequestration, and we are now implementing those measures. 
These emergency measures are unsustainable, difficult and 
painful to implement. The Federal court system in this country 
cannot continue to operate at sequestration funding levels 
without seriously compromising the constitutional mission of 
the Federal courts. The judiciary will phase in the cuts, but 
the impacts will be real and harmful to the citizens served by 
the courts.
    The courts operate under a decentralized management system, 
so each court will decide exactly how to implement the funding 
cuts, but we estimate that on a national basis, as many as 
2,000 employees in the courts could be laid off this fiscal 
year or face furloughs for 1 day a pay period, resulting in a 
10 percent pay cut. These staffing reductions would be in 
addition to the loss of over 1,800 court staff over the last 18 
months.
    Sequestration will impact public safety, because there will 
be fewer probation officers to supervise criminal offenders 
released in our communities. There will be a 30 percent cut in 
funding for court security systems and equipment, and court 
security officers will be required to work reduced hours. This 
creates security vulnerabilities throughout the Federal court 
system.
    Our Defender Services program is particularly hard hit, and 
we currently project significant staff furloughs in that 
program, as well as lengthy delays in processing payments to 
private attorneys appointed under the Criminal Justice Act. 
These cuts will affect the judiciary's ability to provide 
qualified defense counsel to indigent defendants. As many 
recent news articles have noted in highlighting recent cuts in 
both Federal and State defender offices, these cuts occur on 
the 50th anniversary of the Supreme Court's landmark decision 
in Gideon v. Wainwright, which provided the constitutional 
right to defense counsel for indigent defendants. The cuts to 
the Defender Services program highlight the harm that 
sequestration, if left in place, poses for individual 
constitutional guarantees.
    Under sequestration, the judiciary finds itself in dire 
circumstances. I do not overstate when I say that we cannot 
continue to operate at such drastically reduced funding levels 
without seriously compromising our constitutional mission. We 
are hopeful that Congress and the Administration will 
ultimately reach agreement on alternative deficit reduction 
measures that give priority funding to the functions critical 
to our democracy and reject the indiscriminate approach of 
sequestration.
    Turning to the 2014 budget request, today, of course, 
sequestration is in place, but our 2013 full year appropriation 
is still unresolved. For purposes, therefore, of constructing 
the 2014 request, we assumed the fiscal year 2013 funding level 
available under the current continuing resolution of a 0.6 
percent increase above the fiscal year 2012 enacted 
appropriations level. After the full year 2013 appropriations 
are known, we will update our 2014 request and advise you all 
of any changes.
    We do in the 2014 request seek $7.2 billion in 
appropriations, a 2.6 percent overall increase above the 
assumed 2013 level, our lowest requested increase on record. We 
believe the funding level we have requested represents the 
minimum amount required to meet our constitutional and 
statutory responsibilities. The request reflects essentially a 
current services budget and includes $175 million for 
adjustments to base, for standard pay and nonpay changes, 
including the 1 percent cost-of-living adjustment for judiciary 
employees, consistent with the President's recommendation for 
civil service workers, and a total of $5 million for two small 
program increases.
    Before I conclude my remarks, I would like to acknowledge 
the extremely difficult tasks that you all face in deciding how 
to allocate extremely limited resources among the Federal 
entities under the jurisdiction of this subcommittee, and we 
know that each of those entities attempts to make a strong case 
for its resource needs. But we would ask, as you consider the 
judiciary's funding for 2014, that you take into account the 
nature and importance of our work. If sufficient funding is not 
provided to the courts, we cannot provide the people of the 
United States the type of justice system that has been a 
hallmark of our liberty throughout our Nation's history.
    I would ask that my statement be placed in the record, 
along with the statements of the Administrative Office, the 
Federal Judicial Center, the Sentencing Commission, the Court 
of Appeals for the Federal Circuit, and the Court of 
International Trade.
    Mr. Crenshaw. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0953A.057
    
    [GRAPHIC] [TIFF OMITTED] T0953A.058
    
    [GRAPHIC] [TIFF OMITTED] T0953A.059
    
    [GRAPHIC] [TIFF OMITTED] T0953A.060
    
    [GRAPHIC] [TIFF OMITTED] T0953A.061
    
    [GRAPHIC] [TIFF OMITTED] T0953A.062
    
    [GRAPHIC] [TIFF OMITTED] T0953A.063
    
    [GRAPHIC] [TIFF OMITTED] T0953A.064
    
    [GRAPHIC] [TIFF OMITTED] T0953A.065
    
    [GRAPHIC] [TIFF OMITTED] T0953A.066
    
    [GRAPHIC] [TIFF OMITTED] T0953A.067
    
    [GRAPHIC] [TIFF OMITTED] T0953A.068
    
    [GRAPHIC] [TIFF OMITTED] T0953A.069
    
    [GRAPHIC] [TIFF OMITTED] T0953A.070
    
    [GRAPHIC] [TIFF OMITTED] T0953A.071
    
    [GRAPHIC] [TIFF OMITTED] T0953A.072
    
    [GRAPHIC] [TIFF OMITTED] T0953A.073
    
    [GRAPHIC] [TIFF OMITTED] T0953A.074
    
    [GRAPHIC] [TIFF OMITTED] T0953A.075
    
    [GRAPHIC] [TIFF OMITTED] T0953A.076
    
    [GRAPHIC] [TIFF OMITTED] T0953A.077
    
    [GRAPHIC] [TIFF OMITTED] T0953A.078
    
    [GRAPHIC] [TIFF OMITTED] T0953A.079
    
    [GRAPHIC] [TIFF OMITTED] T0953A.080
    
    [GRAPHIC] [TIFF OMITTED] T0953A.081
    
    [GRAPHIC] [TIFF OMITTED] T0953A.082
    
    [GRAPHIC] [TIFF OMITTED] T0953A.083
    
    [GRAPHIC] [TIFF OMITTED] T0953A.084
    
    [GRAPHIC] [TIFF OMITTED] T0953A.085
    
    [GRAPHIC] [TIFF OMITTED] T0953A.086
    
    [GRAPHIC] [TIFF OMITTED] T0953A.087
    
    Mr. Crenshaw. Judge Hogan, would you like to make an 
opening statement?

                    Judge Hogan's Opening Statement

    Judge Hogan. Thank you, Chairman Crenshaw, Representative 
Serrano, members of the committee. I am pleased to appear 
before you today and present the fiscal 2014 budget request for 
the Administrative Office of the U.S. Courts. I will refer to 
it as the AO for shorthand from now on. And I obviously support 
the entire judicial needs of the judicial branch for the moneys 
necessary to operate.
    About 18 months ago, the Chief Justice appointed me 
Director of the Administrative Office. I had been a trial judge 
in the Federal court for 30 years and was pleased that he asked 
me to take on this position. I have served as Chief Judge of 
the United States District Court in D.C. here from 2001 until I 
took senior status in 2008. I then was asked by the court to 
take over the Guantanamo Bay cases, which I handled on an 
overall basis managing those cases for the court until the 
Chief asked me to serve as Director. And my other job is I 
serve also as a member of the Foreign Intelligence Surveillance 
Court at this time.
    As to the Administrative Office, it was created back in 
1939 to assist the Federal courts in fulfilling their mission 
to provide equal justice under the law. It is not a 
headquarters of the courts; it has management oversight 
responsibilities for the various judicial programs and supports 
the Judicial Conference of the United States, which is our 
governing body. The Judicial Conference determines judicial 
policies, we help develop new methods and systems and programs 
for conducting the business of the Federal courts; we develop 
and support the application of technology; collect and analyze 
statistics on the business of the Federal courts for accurate 
planning and decisions about resource needs and for reporting 
to Congress, as we are required to do; and we provide financial 
management service, personnel and payroll support for the 
judiciary.
    The work of the AO has evolved over the years to meet the 
needs of the judicial branch. Service to the courts has been 
our core function and remains so, and we provide administrative 
support to the 25 Judicial Conference committees, over 2,300 
judicial officers, and just under 30,000 court employees.
    As to sequestration, like the rest of the Federal 
Government, it reduces the Administrative Office of the U.S. 
Courts by 5 percent from the fiscal year 2013 CR level. And for 
the AO, this means a cut of $4.2 million with 7 months 
remaining in our fiscal year. We are going to meet that 
shortfall by applying a $1.8 million reduction to nonsalary 
accounts, which means a 25 percent reduction in our travel, a 
50 percent reduction in training, and a 25 percent reduction in 
office and automation supplies. Additionally, we are forced to 
reduce funding for salaries and expenses and benefits by $2.4 
million. That equates to 15 positions not being filled.
    The Administrative Office, really starting back in 2011, 
has been operating at a reduced staffing level, and we have 
continued that and aggressively pursued that. We expect to be 
able to achieve the savings through continued hiring freezes 
and our employee buyouts and early outs. At this time, because 
of the cost containment efforts we have worked on, I do not 
believe it will be necessary to furlough AO staff under the 
sequestration for this fiscal year. In the future, it remains 
to be seen whether furloughs will be required.
    But the impact of our support for the courts is 
considerable under sequestration. One of the things the AO does 
that is very essential to the court operations is the 
development and implementation of key information technology 
systems and programs. We have to slow down or stop our research 
and development in those areas now. That includes enhancement 
of critical financial management applications; processing 
payroll, personnel actions; reviewing court financial 
operations; supporting probation and pretrial services; and the 
deployment, finally, of our national Internet-based telephone 
system, which is a great cost-saver, but will have to be paused 
this spring.
    In addition, the Administrative Office has been very 
instrumental in helping the courts' overall cost containment 
efforts. We are committed to continuing that work with our 
various committees in the Judicial Conference and developing 
even further cost containment issues along with the Budget 
Committee that has led the effort to limit the growth in 
judiciary programs.
    As to the Administrative Office itself, our own cost 
containment, we have been working on an initiative that we 
started, as I said, back in 2011 that would control costs, help 
prepare us for future budget constraints. An internal AO Cost 
Containment Task Force identified measures that could be 
quickly implemented that have immediate financial impact, and 
they have included reductions, I mentioned, in travel, 
printing, publications, descriptions, reducing mobile device 
costs. And all those cutbacks will continue this year.
    But 93 percent of our funding goes to support employee pay 
and benefits, so by necessity, the longer-term cost containment 
initiatives are in those areas. Early retirement opportunities 
that have been made available in 2012 fiscal year will continue 
to be offered this fiscal year. Policies were established to 
permit the buyouts as a workforce restructuring tool, and we 
had 31 buyouts accepted this past fiscal year. During fiscal 
year 2012, early outs and buyouts resulted in close to $2 
million in savings. Hiring was restricted to entry level, or 
lower end of the pay band, with some limited exceptions. In 
2012 fiscal year adherence to this policy, we reduced our costs 
by $700,000.
    We are continuing to review our contractor positions to 
determine the cost-effectiveness of converting certain 
positions to temporary government or permanent government 
positions. We have discovered that contractor positions are 
very expensive, so 100 of the highest cost contractor positions 
were identified for conversion to lower cost government 
positions, for the most part temporary positions. To date we 
have converted nine contractor positions to government 
employees with a fiscal 2013 savings of $540,000. This 
initiative eventually could contribute over $6 million in 
savings to ongoing projects.
    Finally, our budget request for 2014 was built upon the 
level of available funding under the current continuing 
resolution, but the sequestration has been applied to the hard 
freeze of the 2012 level funding now in consideration by 
Congress, and as Judge Gibbons said earlier, after the 2013 
appropriations are known, we will update our 2014 request 
accordingly.
    As Judge Gibbons recognized, I know this is a very 
difficult year for you and your colleagues as you struggle to 
meet the funding needs of the various agencies and programs 
under your jurisdiction, and we appreciate the challenges that 
you all face. We hope that Congress and the Administration can 
agree upon legislation and provide some long-term relief and 
stability to our budget. Again, I thank you for the opportunity 
to appear today, and I would be pleased to answer any questions 
that you have.
    Mr. Crenshaw. Thank you very much, both of you all, for 
those comments.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T0953A.088
    
    [GRAPHIC] [TIFF OMITTED] T0953A.089
    
    [GRAPHIC] [TIFF OMITTED] T0953A.090
    
    [GRAPHIC] [TIFF OMITTED] T0953A.091
    
    [GRAPHIC] [TIFF OMITTED] T0953A.092
    
    [GRAPHIC] [TIFF OMITTED] T0953A.093
    
    [GRAPHIC] [TIFF OMITTED] T0953A.094
    
    [GRAPHIC] [TIFF OMITTED] T0953A.095
    
    [GRAPHIC] [TIFF OMITTED] T0953A.096
    
    [GRAPHIC] [TIFF OMITTED] T0953A.097
    
    [GRAPHIC] [TIFF OMITTED] T0953A.098
    
    [GRAPHIC] [TIFF OMITTED] T0953A.099
    
                   SEQUESTRATION AND COST CONTAINMENT

    Mr. Crenshaw. One of the things, when I hear, Judge 
Gibbons, you paint a fairly bleak picture in terms of funding, 
and on the other side, it is good to hear Judge Hogan talk 
about some of the things that you all have done, and I think 
you are to be applauded for that, because most of us on this 
committee, we think that the continuing resolution is not a 
very good way to run the railroad, because our job is to have 
these kind of hearings, to listen to you all, to make priority 
decisions. And programs that are working well, then we ought to 
fund them, and if programs are not working as well or wasting 
money, then we ought to reduce or limit them. But when you do a 
CR, continuing resolution, you just say, we will just give you 
the same amount of money you had last year whether you were 
doing a good job or not. And so we all are disappointed that 
that is where we find ourselves.
    And then you throw in the fact that we have this concept of 
sequestration, which once again most appropriators would say is 
a terrible way to try to find reductions in spending, because 
most things that the Federal Government does are important, but 
just like in life, some things are more important than others. 
And it would be a whole lot better if we want to try to reduce 
spending, that we would look and find the areas that are doing 
a good job and fund them at an appropriate level, and again, 
find other areas where there is waste, and we would reduce 
that, but we do not get that opportunity. It is just across-
the-board, pretty draconian, not a very good way to do it, but 
we find ourselves in that situation.
    And I appreciate the fact that you have taken that, because 
in one sense it is obviously a curse in the sense that you do 
not have all the money you need, but in one sense it might even 
be a blessing. As Judge Hogan kind of pointed out, there are 
things that you have done that are very impressive to say, 
look, we know we are going to have less money and we are going 
to have to live with that.
    Maybe you might comment on two things. One, specifically 
some of the things that, as you say, just impact your ability 
to do your constitutional duty. Does that mean less cases? Some 
of the specifics about that, I would love to hear. And then, 
two, some of the things that you are doing to reduce your 
spending.
    One of the things that comes to my mind, I know that there 
is about a billion dollars in your request that goes for office 
space. And there is some new office space, I think there were 
76,000 square feet of new space, and on the other hand I think 
over the last year and a half, the number of staff has gone 
down by, like, 1,900, and I am sure that is part of your 
process in terms of how to control costs, because that is a lot 
of money in terms of money that you pay to the GSA all across 
the country.
    So talk about how you are working on that more specifically 
in terms of just dealing with the space. I imagine it takes 
time to catch up. You got plenty of space, you got less people, 
so you got to match up that. That is one area that I am sure 
you are working on. But could you do that? Could you touch on a 
couple of the areas specifically so we can understand, you 
know, how difficult it is, and, two, highlight some of the 
things that I think Judge Hogan has already talked about that 
you have really been able to define areas to save money?
    Judge Gibbons. Okay. I will try to take on both of those 
assignments, Mr. Chairman.
    First, specific impacts of sequestration. All of these are 
important, but I am going to take a little picture, moving to 
big picture approach to answering this question. Within the 
court, the impact on judiciary employees for whom we, of 
course, feel a great deal of responsibility, we are talking 
about their loss of income and increased risk because of 
reduced security, increased risk of working in a court 
environment.
    Moving to the people whom the courts serve, we will try our 
very best to avoid this, but I think it is almost inevitable 
that we will see some delays in the handling of cases. And, of 
course, we have individuals who seek relief in our courts. We 
also have businesses who seek relief in our courts. Both will 
be affected by potential delays in civil litigation. In 
bankruptcy cases, we of course have both individuals and 
businesses who come before us as debtors, but we also have all 
the many businesses who are creditors in bankruptcy proceedings 
who may well be affected by delays in the process.
    Obviously, given the amount of our docket that deals with 
business and commercial activity, there is some economic impact 
from this, as I believe Justice Kennedy mentioned to you all 
last week.
    Turning to other public policy goals, I have already 
mentioned the economic situation, but the public policy goal of 
maintaining the public safety is compromised if we have fewer 
probation officers to supervise dangerous offenders who are 
released from prison. Congress has expressed the public policy 
goal of disposing of criminal cases quickly through the Speedy 
Trial Act. We would certainly hope that we would be able to 
dispose of cases in the manner that the Act requires, but that 
is in jeopardy if delay is occasioned. The remedy, of course, 
if the Speedy Trial Act is violated, is dismissal of the 
indictment. That will come about not only because of internal-
to-the-courts issues, but also because of the situation that 
has been mentioned with respect to the Federal defenders and 
their resource needs. They may simply not be able to step up to 
the representation of criminal defendants in as timely a manner 
because of their own personnel resource scarcity.
    The public policy goal of providing representation for 
indigent defendants, a public policy goal that is incorporated 
in our Constitution, not merely in statute, will be compromised 
by these cuts.
    And, finally, the biggest picture issue of all is that the 
place that the courts have held in our democracy is 
jeopardized. The Constitution envisions a strong and 
independent judiciary that can handle the cases and 
controversies that come before it. I am not a fan of hyperbole 
and I avoid it, so it is no hyperbole when I say that we have 
deep concern about our ability to fulfill our constitutional 
mission.
    Now, those are the sequestration impacts, big to small--
small to big.
    Turning to cost containment and more specifically the space 
situation, we have actually, lest it seem as though cost 
containment is something we began to do in response to 
sequestration or the threat of it or began to do recently, we 
have had a very aggressive cost containment effort since 2004. 
And I will not go over all of our past accomplishments, and I 
will refrain from patting ourselves on the back, as we have 
done in past committee hearings, but it has been there, it has 
been in place. But we, of course, have a lot of new things 
ongoing, too.
    While we have done a lot of things in space over the years 
to control the growth in that account, of course the issue of 
the day is downsizing our space as our personnel have 
decreased. And also there is room for downsizing as a result of 
our use of technology. And we intend to do that. The problem 
is, it is hard to do it as quickly as the budget cuts have 
come, because much of the space that has been freed up by 
downsizing and technology is interior space, and we cannot just 
say to GSA, we have a little office here, please come take it. 
Steps have to be made to make it marketable, funding is 
required to move folks around, and in a constrained budget, 
that is hard to do. And GSA may be reluctant to fund space 
reduction efforts, given its own constraints and given the 
expense of doing it. So the whole process is simply slowed by 
that, but nevertheless we are working on it.
    Everything has to have a name within government, and I fear 
the judiciary has not avoided that trend. We have something 
called the Integrated Workplace Initiative that is designed to 
downsize our workspace and make it a different kind of 
workspace, really because of the flexibility that technology 
has given us with respect to when and where work can be done. 
Again, money is required, though, to outfit the workplaces to 
meet this new sort of model.
    Other areas we have been trying to address, the closing of 
nonresident courthouses--a very difficult thing to do. We have 
gotten some of them closed. We need to continue to do that. We 
are looking hard at our libraries and whether we have excess 
space in the libraries and whether we might downsize there as 
more and more legal research is computerized as opposed to 
being done in the books that line the shelves. We have provided 
a little bit of a financial incentive to courts that release 
space through our circuit rent budget, providing them a little 
bit of a credit, hoping that we can get more courts to step up 
and say, hey, I have got this space, let's figure out how you 
can take it, GSA.
    That is what we are doing in the space area. We have many 
other cost containment initiatives, and I am happy to address 
them now or later, but if your particular interest at this 
point is space, I will stop.
    Mr. Crenshaw. Well, thank you very much. And I think we all 
applaud the efforts you are making on a farsighted basis, and I 
just hope some of the other agencies have had the foresight 
that you have had that in these difficult times make it a 
little more bearable. So, again, thank you for that.
    Mr. Serrano.

          SEQUESTRATION CUTS IN THE DEFENDER SERVICES PROGRAM

    Mr. Serrano. Thank you. And once again, thank you for being 
here. I am going to once again discuss with you the whole issue 
of the public defenders and my concern that the program may be 
hurt to a point where it cannot meet its constitutional 
responsibility.
    You know, we spend a lot of time in this Congress, and it 
is fine, I think it is proper, discussing, you know, our 
country versus other countries and our great democracy and our 
form of government. Notwithstanding how many people on TV may 
knock it on a daily basis, I still think that a lot of the 
world would like to have this system in place, and we could 
discuss so many things about it. But one of the ones that 
always stands out to me, and I am not a lawyer, but one thing 
that stands out to me is the fact that a person of no resources 
or very low resources can still get counsel and be protected, 
and we can try to give that person the fairest trial possible. 
And that is something that is different about us from a lot of 
other countries. So I am concerned about ensuring the rights to 
counsel for indigent defendants even in these difficult budget 
times.
    Are you, Judge Gibbons, concerned about the effects funding 
cuts will have on the Federal public defender program? And 
what, if any, flexibility does the judiciary have to shift 
funds around to help this important program?
    Judge Gibbons. We are certainly very concerned. Part of the 
impact in that program comes from the fact that even more than 
the salaries and expenses account, that particular account is 
so heavily personnel and rent. It is about 90 percent, making 
the cuts in that account very difficult. We estimate that 
employees in the Federal defenders offices will be furloughed 1 
day a week under sequestration. Because all the accounts are so 
hard hit, it is very difficult, as you might imagine, to say we 
would shift funds. Certainly once our 2013 appropriations are 
finalized, we will look to see if there is a way we can help 
the defender services account.
    Last week a number of judges were in town for the meetings 
of the Judicial Conference and for related meetings, and in 
those various meetings it was heartening to me to see the 
concern that judges and the court managers who were here 
expressed and their willingness to look at ways that the courts 
could help the defender offices, not necessarily by shifting 
funds, but other mechanisms which we really have not even begun 
to discuss yet.
    These might be problematic to the extent, you know, it is 
important to the defenders not to be seen as controlled by the 
courts. We appoint counsel in these cases, but then they have 
an independent duty to represent the client. I mean, the 
lawyers are not doing what the judges tell them in the cases, 
obviously. And so we have got to explore, find alternatives 
with that in mind, but I think that we will be discussing that 
some more.
    Mr. Serrano. Now, at the end of one of your statements, you 
said you are concerned that the courts--the courts, I believe 
you were speaking to--cannot meet their constitutional mandate. 
Is that a more difficult situation when it comes to the 
defenders, or is it across the board that you have this 
feeling?
    Judge Gibbons. Certainly the defender program is not the 
only area in which we think our constitutional mission is in 
jeopardy. As you know, we do not have extra programs that can 
be lopped off. Everything the courts do is something that we 
are required by the Constitution or statute to do. But 
certainly the defender program is perhaps the most immediately 
affected program in a very grave way.
    Mr. Serrano. Right. Well, when his turn comes up, Mr. 
Quigley will be asking a much more----
    Mr. Quigley. Similar.
    Mr. Serrano. Smart?
    Mr. Quigley. Similar.
    Mr. Serrano. Similar, but more pointed questions, because I 
am going to do something he will hate me for, and that is mess 
up his presentation by telling you that he was a public 
defender.
    Mr. Quigley. Private attorney.

         IMPACT OF SEQUESTRATION ON THE JUDICIARY'S IT PROGRAM

    Mr. Serrano. And so we commend him for that.
    Judge Hogan, a similar question to you. The impact of 
sequestration on the Administrative Office of the Courts will 
be considerable, as noted in your testimony. In particular, you 
note cuts will have a long-term cost in regard to missed 
opportunities; for example, reduced IT expenditures. In your 
letter, you say that the Federal Judiciary cannot continue to 
operate at such drastically reduced funding levels without 
seriously compromising the constitutional mission of the 
Federal courts. How long can the courts continue to operate 
under this extreme budget pressure, one of the most troubling 
aspects of sequestration for the Federal Judiciary, in your 
opinion?
    Judge Hogan. Thank you, Congressman Serrano. We are 
concerned as to the information technology development. It may 
be somewhat surprising, but I believe the courts have become 
one of the most tech savvy workplaces of all the government 
structures. We have developed, particularly in probation and 
pretrial, automation services that allows them to reduce their 
office space greatly, utilize mobile technology with all their 
records and files when they visit their clients, et cetera, to 
be available, and very good reporting systems.
    The same is true throughout the courts, not only in the 
legal research systems, but on our financial systems, our 
statistical recordkeeping systems. And what we are concerned 
about, our director of IT, Joseph Peters, has developed a very 
good strategic plan for the next 5 years on how to integrate 
some of our systems together to save money and reduce our 
expenses greatly. Some of that is going to have to come to a 
halt.
    I had referenced our telephone system. We had been putting 
in a new Internet-based telephone system in the courts. We had 
a goal of putting in 30,000 pieces of equipment for the courts 
in 5 years. In the first 2 years this operated, it was so 
popular with the courts, we put 22,000-plus in, almost reached 
our goal in 2 years rather than 5 years. We are going to have 
to bring that to a halt later this Spring because the money is 
not going to be there because of sequestration to complete the 
system that we wished. And it saves the courts a lot of money 
by having this integrated phone system. That is one example.
    I think we can still meet our constitutional duties in the 
courts by providing services that are required. It will just be 
slower and more time consuming, and we will eventually pay the 
price in years to come when we have not developed our new 
automated systems we are working on now because of the delays 
in getting them done. The immediate impact is somewhat severe, 
but the future impact we are not sure yet, but I think it will 
be limiting us in the future to do the work the way we feel we 
can do it. That is just one example as to the problems with the 
sequestration on the IT structure that we have.
    Mr. Serrano. Right. Thank you. Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you.
    Mr. Diaz-Balart.

               CYBERSECURITY AND THE USSC WEBSITE HACKING

    Mr. Diaz-Balart. Thank you very much, Mr. Chairman.
    Good to see you all. Thanks for being here.
    Actually a question on a different vein, the issue about 
cybersecurity and cyber threats, and it is something that 
obviously the private sector and, frankly, all the Federal 
Government has been highly subjected to recently. And recently 
the U.S. Sentencing Commission's Web site was hacked on two 
occasions by the group Anonymous. And could you just give us 
your understanding as to how bad that was, what was 
compromised, and also what measures have been taken or can be 
taken to try to stop that from happening again, if at all 
possible?
    Judge Hogan. I will be pleased to talk about that. Thank 
you for that question. Cybersecurity is a considerable problem 
for the courts with the type of information that we contain in 
our records, and we are very sensitive to that.
    I will address first the Sentencing Commission issue. I got 
rather involved in that and I can talk to that, and then our 
national program of security I can address as well. And with my 
background in the FISA Court, I must tell you that I am very 
sensitive to cybersecurity, that is one of the most serious 
problems that the FISA Court works on.
    On the Sentencing Commission, there was a Friday night 
attack, which had been identified, by this loosely organized 
group called Anonymous. Frankly, I think they were trying to 
attack the Justice Department. I think they thought the U.S. 
Sentencing Commission was part of the Justice Department. They 
found a failure in their security that they had, and they were 
able to intrude and bring it down.
    Their security contractors (they had a private security 
contract) felt they had cured the problem and put it back up 
again on Saturday. Anonymous had managed to arrange it such 
that they could get right back in again, and they did again on 
Saturday, and this time they took it down and embarrassingly 
made the page, when you went onto it, refer you to some 
computer satellite game or something, and the Sentencing 
Commission site was destroyed.
    That caused considerable concern. There was nothing taken 
from their public Web site that had personal, confidential 
information or any links. They could not go into their 
operating systems. So they did not compromise the entire 
system, but they destroyed the Web site.
    The AO then was sought by Judge Patti Saris, the Chair of 
the Sentencing Commission, to help, and we provided technical 
assistance. We made a number of security improvements. We are 
now temporarily hosting the Commission's Web site. We put it 
back up. It took quite a while, almost 2 weeks to get it 
restructured. And we are now exploring with the Commission an 
appropriate and secure long-term hosting arrangement. We can 
take it over, but it is going to have to be done with some 
understanding and how we are going to do this. I will not go 
into the security that was enhanced, but they have enhanced it, 
and it has withstood their attacks at this point.
    As to overall national security policies of the court 
system, we have developed, and continuously monitor 24/7 
programs to advise us of any malicious activity, attacks. We 
have programs that go out to the courts constantly advising 
them of security patches to install. In fact, the attack on the 
Sentencing Commission was successful because their contractor 
had not made a patch that they had been told to make, 
unfortunately.
    At the local level, we have licensed security software for 
end point protection, we have annual security awareness 
programs. And I, particularly with my background, have been 
very concerned. I have a weekly report from my IT people as to 
security attacks against the judiciary as a whole. And we have 
been constantly attacked, particularly by Anonymous for almost 
every Sunday evening in the last several months, and it has 
continued. They have not been successful against the courts. 
There was one cyberattack in the Eastern District of Michigan, 
which caused a problem for a few hours that we resolved, but 
other than that, there has been no successful attack against 
the judiciary--I am knocking on wood--that has yet to occur.
    We are very sensitive to that. We do find, unfortunately, 
constantly, because of people that come to the courthouse with 
their laptops and plug in to use it while they are in court, 
our interns come in, some other people come in, and they can 
introduce malware from their own computers. We are very 
sensitive to that and we have programs that pick that up, and 
we constantly warn courts and advise them: We have discovered 
on your system, there is some malware that has been introduced. 
You must clear it up immediately. And that is constant, our 
service on that.
    We have also worked with Homeland Security and with the 
Department of Defense and with the FBI on continuing our 
security, and work with them closely together to make sure that 
we remain protected. We are very cognizant of the sensitive 
materials in our court system, which should not be made public, 
not only in criminal matters, very sensitive criminal matters 
that are ongoing, but cases that involved classified 
information, that type of thing. So we are very sensitive and 
we are trying to do the best we can in the cybersecurity area, 
and I think so far we have been fairly successful in that. That 
is one area that we are protecting as much as possible under 
sequestration, not cutting the budget.
    Mr. Diaz-Balart. Thank you.
    Thank you, Mr. Chairman.
    Mr. Crenshaw. Thank you.
    Mr. Quigley.

                       DEFENDER SERVICES PROGRAM

    Mr. Quigley. Thank you, Mr. Chairman. Just for the record, 
I was not a public defender, I was a private defense attorney. 
I always tell folks, the highest conviction rate in the county. 
It is funnier if you actually practice law, I guess.
    Let me ask a little bit more about the public defender 
program, the Federal defender program. And, Judge Gibbons, if 
you could, just for the public's understanding, people in court 
are defended by their own attorney that they hire, but they are 
also defended by people paid for with the public's money. Could 
you just briefly explain the different ways that can happen?
    Judge Gibbons. Well, of course, if a defendant can hire his 
own attorney, then the Federal defender offices and the panel 
attorneys do not become involved, no public moneys are involved 
in the representation. If the defendant is determined to be 
indigent, then an attorney is appointed by the court.
    We have found in the Federal system that the way to provide 
the best and also the most cost-effective representation is to 
set up Federal defender offices in the various districts. There 
are Federal defender offices in virtually all the districts.
    Mr. Quigley. And are these full-time employees?
    Judge Gibbons. These are full-time lawyers. They are 
supported by non-lawyer staff. There is a Federal defender who 
heads the office in each district.
    Mr. Quigley. Judge, if I could interrupt. Why would they 
appoint someone versus using that office?
    Judge Gibbons. Well, because, two reasons. If there is a 
multiple-defendant case or otherwise a conflict for the Federal 
defender's office in representing the defendant, then somebody 
else has to be appointed. And the courts maintain, each court 
maintains a panel of attorneys who have agreed to accept such 
appointments and in most cases have been screened by the court 
to meet certain qualifications.
    There has been another practice that has triggered that 
private appointment, and it is one that we have been concerned 
about from a cost standpoint, but there has been another 
practice that when the Federal defender's office reaches a 
point at which it believes it cannot accept more appointments, 
in some districts the Federal defender has gone to the judges 
and asked the judges to appoint, for some period of time, 
private attorneys. We do not think that there is anything wrong 
with that practice, except we want to make sure that the 
resources of the defender's office are fully exhausted before 
that happens.
    Mr. Quigley. Well, let me ask you as we get closer to the 
main points here, the demand currently, what I said when we 
talked to some of your colleagues the other day was that a 
downturn in the economy tends to have an uptick in people who 
need to have someone appointed, because they do not have the 
resources. I do not know if you have noticed that trend of 
greater demand at the same time or just an uptick in crime, 
perhaps?
    Judge Gibbons. You know, I mean, we have had some increases 
in representations, but truthfully it is not the usual 
defendant in Federal court who has ample resources to hire his 
own lawyer whether the economy is good or bad.
    Mr. Quigley. What is the percentage?
    Judge Gibbons. So there is probably some reaction to the 
economy, but your typical defendant is not among our most 
affluent citizens.
    Mr. Quigley. What percentage of them are currently 
incarcerated when they are in that position, when they are on 
trial, and what percentage, to your knowledge, are using some 
help from the defender's office or appointment?
    Judge Gibbons. You know, I am not sure that I have those. I 
mean, we can certainly get those figures for you.
    [The information follows:]

    [Clerk's note.--Subsequent to the hearing, the Judiciary 
provided the following information:]

    Regarding pretrial detention rates, in 2012 72 percent (71,214 of 
99,066) of all defendants were detained pending trial. These figures 
include defendants awaiting trial on immigration charges. Because 
defendants charged with immigration offenses are considered a flight 
risk they are typically detained pending trial. Excluding immigration 
cases, the pretrial detention rate drops to 57 percent (36,050 of 
63,795).
    Regarding the percentage of defendants requiring defense counsel 
under the Criminal Justice Act, approximately 90 percent of federal 
criminal cases have appointed counsel. Federal defender organizations 
typically are assigned in about 60 percent of appointments under the 
Criminal Justice Act, and private panel attorneys are appointed in the 
remaining 40 percent of cases.

    Judge Gibbons. Off the top of my head, I do not know. 
Somebody may pass me a note in a few minutes and tell me.
    Mr. Quigley. I do not see anybody scribbling right now.
    Judge Gibbons. So maybe I will be able to help you out.
    Mr. Quigley. Sure.
    Judge Hogan. If I can just chime in for one thing. I know 
that about 90 percent of the criminal cases in the Federal 
courts are represented by either Federal public defenders or 
what we call Criminal Justice Act attorneys appointed under the 
law.
    Mr. Quigley. Sure.
    Judge Hogan. So maybe about 10 percent are retained 
counsel.

                          PANEL ATTORNEY RATES

    Mr. Quigley. Right. And let me tell folks, and you can echo 
this or not, those appointed are not paid lavishly. I would say 
most that take those cases do so partially because it is, I 
guess, additional income and it is something they think is the 
right thing to do. But no one is getting rich, either, 
defending these cases as they are appointed.
    Judge Gibbons. They are paid substantially less than they 
would charge your typical paying client. We worked really hard 
for a number of years with this subcommittee to get that rate 
up to its current level, but it still is nowhere near market 
rates.
    Mr. Quigley. And has there been any analysis of how that 
has affected, as diplomatically as I could say, the quality of 
representation?
    Judge Gibbons. During the years when we were trying to 
obtain an increase, I mean, there are several years on that, 
but we did do some surveys to try to determine the extent to 
which the limited pay available was affecting willingness to 
serve and the quality of counsel. And obviously one of the 
concerns we have about the sequestration period and the delay 
of payments to private attorneys is that more and more 
attorneys will become unwilling to accept these appointments if 
they are not going to be paid in a timely manner. And that is 
of real concern to us.
    If you will bear with me just a minute, as I mentioned 
earlier, the two parts of this account really interact with 
each other, because to the extent the Federal defender's office 
does not handle a case, there is a need for private attorneys 
to handle that case.
    Mr. Quigley. Sure.
    Judge Gibbons. --The two accounts play against each other, 
and the deferrals on the private attorney side, the CJA side, 
could be very problematic for us. So that is not much of 
anything other than a very short-term answer to the problem of 
adequate appropriations for the defender offices.
    Mr. Quigley. Thank you, Mr. Chairman. Thank you.
    Mr. Crenshaw. Thank you.
    Mr. Yoder.

                TEMPORARY DISTRICT JUDGESHIP EXTENSIONS

    Mr. Yoder. Thank you, Mr. Chairman.
    Welcome to the committee. Thanks for your testimony today. 
Glad to have you here.
    Judge Gibbons, in your testimony on page 4, you discuss 
your request for a CR anomaly, which is a no-cost anomaly to 
extend the authorizations for nine temporary district 
judgeships that are at risk of being lost. If a judgeship 
vacancy occurs in a district after a temporary judgeship 
authorization expires, that judgeship is permanently lost. 
Kansas is one of those areas.
    Can you discuss with the committee the immediate impact 
that would occur in jurisdictions where a no-cost anomaly in 
the CR had not been included, what the potential impact to 
those jurisdictions would be through a death or retirement 
without proper language?
    Judge Gibbons. Well, obviously, if the judgeship is lost 
the cases have to be shifted to other judges. And that really 
creates, obviously, resource imbalances and difficulties in 
handling workload within the district.
    In Kansas, for example, the evaluation is that a permanent 
judgeship is needed. But in the absence of a bill creating 
permanent judgeships, the extension of the temporaries is very 
important in order to get the workload in that court handled 
appropriately.
    Mr. Yoder. And the scenario, then, without proper verbiage 
going forward, would be if there would be a death or a 
retirement, that judgeship would be lost, there would be no 
provision to replace it, and it would have to be recreated 
through either new legislation creating a permanent judgeship 
or a new temporary judgeship. But in the meantime, there would 
be no mechanism to fill that vacancy----
    Judge Gibbons. Right.
    Mr. Yoder [continuing]. Because of the statute.
    Judge Gibbons. Right. I think I am correct about this, and 
I know I will be corrected if I am incorrect, I think the 
proposed language that tries to adjust the period of these 
temporary judgeships so that we can avoid--I believe that your 
judgeship lapsed in November of 2012--and avoid the situation 
where you have got these lapses occurring during the period 
typically covered by a continuing resolution.

[GRAPHIC] [TIFF OMITTED] T0953A.100

    Mr. Yoder. So that is something we want to continue to work 
with you on to ensure that we have the right language to 
protect those positions. And so I appreciate your----
    Judge Gibbons. I believe our staff has worked hard at 
trying----
    Mr. Yoder. We know they have.
    Judge Gibbons [continuing]. To make sure that the 
appropriate language is in the resolution.

                            COST CONTAINMENT

    Mr. Yoder. Thank you for that. Look forward to working to 
ensure that that occurs going forward.
    I want to talk a little bit about cost containment and what 
we can do to assist the judiciary to have opportunities to save 
money. And so, you know, I certainly would appreciate your 
thoughts on statutes or requirements or rules that the Federal 
Government has in place that we could make modifications to 
that would allow the judiciary to save money and allow them to 
have the flexibility to be better stewards of tax dollars, 
which, of course, all of us want.
    Judge Gibbons. We have begun to think about and to talk 
about structural changes. And there are some that we know of 
that could make a difference, but we are not certain that all 
of them would be good ideas. I mentioned some of these to you 
only as a way of sort of conceptualizing how we might think 
about this differently if we really wanted to turn things 
upside down.
    Our structural issues do drive our costs. We have 94 
district courts and the corresponding number of bankruptcy 
courts. I do not know that any structural change in the number 
of district courts we have is advisable, but if we were to 
consider it, you were to consider it, I am pretty sure that you 
would encounter many of the same obstacles we encounter when we 
talk about closing a courthouse in a particular locality. So I 
think it would be a difficult thing to do.
    One thing we have talked about doing is consolidation of 
district and bankruptcy clerks' offices, and there are 
differing views within the judiciary about whether that is a 
good idea or not. But that requires legislative change.
    Mr. Yoder. If I might, do we have any idea what the savings 
on that would be? Because you would essentially consolidate 94 
clerk offices across the country.
    Judge Gibbons. There would be some. I mean, there would be 
some. I cannot quantify it for you now. We could try to give 
you a ballpark figure if we did it for every court. But there 
would definitely be some savings. I will talk just in a minute 
about a way we are trying to address the same problem without 
legislative change----
[GRAPHIC] [TIFF OMITTED] T0953A.101

    Mr. Yoder. That would be great. Thanks.
    Judge Gibbons [continuing]. In terms of cost containment. 
But before I leave my list of the things that might be changed, 
you know, we pay our rent to the General Services 
Administration. And although sequestration has affected us, we 
do not receive any discount on our rent. And we have never been 
certain that that whole arrangement is the one that makes the 
most sense in terms of efficiency. And you will hear a lot of 
dissatisfaction in the judiciary about that arrangement and the 
way it operates.
    We also, as you know, pay charges to the Federal Protective 
Service for providing protection in our buildings. And while we 
have managed with GSA to develop a good system of validating 
our rent bills, we have been having trouble validating the 
bills we receive from the Federal Protective Service. So that 
might be another area in which to look.
    We have for a long time now, though, tried to work around 
our structure and to bring about cost containment, accepting 
that our structure is as it is. We have had for years means of 
getting judicial resources to the areas that most need them 
through our Committee on Inter-Circuit Assignments, through 
visiting judge programs that operate more informally within 
circuits, and through just a whole lot of help from all parts 
of the country to the Southwest border courts, which have had 
so much difficulty with their caseload.
    But in the area of, you know, court operations, one of the 
biggest areas we are emphasizing right now for cost containment 
is the concept of shared administrative services, meaning that 
courts could share functions like human resources, information 
technology, procurement, finance, budget, property management, 
and that that might be a more efficient way to do things than 
for each court to have its own separate folks doing that. And 
we have removed internally the barriers to courts doing that so 
that courts are now free to share without regard to district 
lines or court lines or what type of court unit, without regard 
to geography.
    And so that is one of our primary areas of emphasis. We 
have had each court do a plan telling how it intends to share 
services. And we are beginning to look just initially at 
whether there are any other ways in which we can share services 
despite our construction.
    I have been reminded that the GAO is looking at the 
consolidation issue with respect to district and bankruptcy 
courts at the request of this subcommittee, and we are 
interested to see what their recommendation would be. And they 
will probably attempt to quantify whatever savings might 
accrue. Whether we will agree with their assessment or not, I 
do not know, but we will see.

                  REDUCING SPACE NEEDS AND RENT COSTS

    Mr. Yoder. Thank you for that. And I appreciate the 
initiative you are taking in this regard to figure out ways to 
reduce costs. And certainly quite often we deal with sort of a 
hide-the-ball issue in Washington where it is hard to get 
agencies or entities to talk about how they might save costs 
because that may mean they get less money. And so we appreciate 
you taking initiative. I always appreciate an approach where we 
are working together to find ways to find savings for taxpayers 
in a way that there is cooperation. And so it is a good 
relationship.
    I did want to ask, just briefly, Mr. Chairman, one final 
question related to this topic.
    That is in your testimony on page 5, where you say that one 
of the judiciary's biggest cost containment successes has been 
reducing your space needs and rent costs. You say the GSA's 
cooperation is essential, though, to your ability to reduce 
space. You will need them to work with you on space reduction, 
including taking back excess space from you in a timely manner. 
We just had the GSA in this committee yesterday. But I guess I 
would ask, is that working and what can we do to help in that 
regard?
    Judge Gibbons. Our relationship, day-to-day relationship 
with GSA, has actually been a fairly productive one over the 
last several years, and that is at the national level, although 
sometimes there are frictions that occur with respect to 
particular projects and particular courts. So, you know, I 
would describe that as the overall nature of the relationship. 
They have worked with us in some ways to hold down our costs 
over the years. But still just the whole structure is one that 
gives us a lot of trouble, and it is a situation in which, you 
know, we can control to a limited degree whether and when we 
give up space, but we cannot control the selection of our 
space, for the most part, we cannot control the annual 
increases. And yet this is an item that we must pay. Inherent 
in the relationship is some difficulty even if we are working 
very, very well with the GSA officials on a day-to-day basis.
    Mr. Yoder. Thank you for your testimony.
    Thank you, Mr. Chairman.

                            TERRORISM TRIALS

    Mr. Crenshaw. Thank you. I have one final question. I think 
Mr. Serrano might have one. And this is more asking for an 
observation. We have talked a lot about cost containment and 
you are to be applauded for so many things that you have done. 
I want to ask you about these high-profile terrorism trials you 
read about from time to time. I noticed that the administration 
has decided to bring Osama bin Laden's son-in-law to the United 
States to have a trial.
    And I know you do not decide, you know, how or when foreign 
terrorists are going to be tried. And I am sure that the 
judiciary will do everything they can to make sure it is a fair 
trial and the Federal Marshals will provide security. But it 
seems to me that that has got to impact the day-to-day 
operations. And I do not know how often this happens. But when 
we are talking about limited resources and how every dollar 
counts, what is your observation about the impact those kind of 
high-profile terrorist trials have on the normal operations of 
the court? For instance, seems like you have to have more 
security for the judges, for the jurors. And I guess the 
Department of Justice shares in that. But there have got to be 
some increases in expenses.
    And then, for instance, if you have a high-profile trial 
going on, do you have to suspend some of the other activities 
because all that commotion that goes on around the court? Just 
a brief comment on your observations about the impact that 
these would have on our operations normally.
    Judge Hogan. Yes. Thank you, Mr. Chairman. I have had some 
personal experience with that in my work in the D.C. Court 
here, in the Federal court, and am familiar, obviously, as 
Director of some of these issues.
    They do have quite an impact upon the courts. There is no 
question about that. And the high-profile terrorism case does 
provide additional challenges to the normal operation of the 
court system. It does not paralyze the court. The other judges 
still do their work. It makes it perhaps more difficult.
    Some of the areas you have to look at in planning this when 
you get one of these cases, and I think it reflects a little 
bit on our budget issues because we do not choose our work, our 
work comes to us. Other people give us work. And it can be the 
executive branch that gives us work through the cases they 
bring or the legislature with new laws. And so we have to meet 
those demands.
    I sometimes wish that we would be able to have, both from 
the executive and legislative branches, a judicial impact 
statement when they are going to do something to us to let us 
know how much they think it is going to cost us to handle this 
new work.
    Mr. Crenshaw. We call those unfunded mandates.
    Judge Hogan. That is a good term for it.
    In the terrorism area, if a court draws a terrorism trial, 
as happened in New York, and it is the judgment of the 
executive branch to bring it, obviously the first thing you 
look at is security issues. And what will happen normally is 
you meet with the Marshals' office, who do a threat assessment. 
And they have a special team that comes in and does that. They 
will meet with the judge and the chief judge to determine what 
additional equipment may be needed for security purposes, how 
much additional staff will be needed, what they will have to do 
with the neighborhood surrounding the courthouse, blocking off 
roads, which has happened before, making it difficult for the 
people that live there, frankly, to get in and out. And other 
security methods. They have to look at transportation, frankly, 
of the individual or individuals they are bringing and how are 
they going to accomplish that. There was one case in my court 
we brought them in by helicopter for safety reasons rather than 
driving them through the streets. There are just various 
problems that the Marshal has to work with, with the 
prosecutor's office and the defense counsel and the court to 
handle that. So the Marshals have a very large role in those 
areas.
    Another area that you do not think about very often, it 
will probably involve classified information. And then we get 
into what they call CIPA, the Classified Information Procedures 
Act that you have to clear this information and how it is going 
to be used. But that means we have to set up in the courthouse, 
you have to create, if you do not have one--and, again, Judge 
Gibbons talked about the acronyms--a SCIF, Secure 
Compartmentalized Information Facility. That is a locked-down 
facility where you keep the secret information and no one can 
get in there without special access, and there is no 
communications within that room, et cetera, so the information 
is protected. And that means that to set that up has to be done 
and you have to operate that, while you have a special 
information officer who handles that from the Justice 
Department as well.
    After you go through setting that up, then you have to get 
your staff security clearances to be able to look at this 
information. And that costs money and time as well. And then 
the final component really is, if you get towards a trial, the 
jury. And you are going to have to summon a large number of 
potential jurors to come down because difficulties in getting 
them to serve and knowledge they may have about the case or 
preconceptions. So you have to go through hundreds of jurors to 
select the trial, and that is expensive and time consuming as 
well.
    The bottom line, I think, is that we have conducted 
terrorism trials of a high-profile nature, high-visibility 
nature, of a high-threat nature. They have been done 
successfully. But they are very expensive and time consuming. 
And with the sequestration, for instance, I am concerned if an 
individual is brought in on the Federal defenders and the 
monies that are available for them to be able to represent the 
defendant and what they can afford to do. It will be a 
challenge for high-threat trials in the future at this budget 
level, frankly.
    Mr. Crenshaw. Well, thank you very much.
    Mr. Serrano.

                         COURT STAFFING LOSSES

    Mr. Serrano. Thank you so much, Mr. Chairman. Before I ask 
the question, I just want to comment on this whole thing of 
where to hold the 9/11 terrorist trials. That became such an 
emotional and a very serious issue in New York City. And at 
that time--and still today--I was the only member of the New 
York City delegation, perhaps the New York State delegation, 
who was in favor of having the trials in New York. I said this 
was the scene of the crime, if you will. We have nothing to 
hide. We shouldn't fear anymore, you know. So I thought it was 
part of the healing process to say we can do it here.
    Interestingly enough, at the end of the day, Mr. Chairman, 
the reason given by city officials in consultation with Federal 
officials for not holding it was the impact it would have on 
local businesses with traffic and so on, which kind of struck 
me as an interesting reason not to hold a trial there.
    Let me ask one last question. Judge Gibbons, your testimony 
discusses the loss of 1,800 staff over the last 18 months due 
to budget pressure. And this is before the sequester. Can you 
please provide a breakout of how these staff losses have 
impacted each program within the judiciary? Have these staffing 
losses been through attrition or have you had to let staff go?
    And another part of another question is, in your testimony, 
you decided not to request funding to replace the 1,800 
employees that were lost over the last 18 months as a result of 
the budget. That was not easy, but how did you come to that 
conclusion? So how did you, first, let go of the 1,800, and 
then why did you decide not to ask to replace them?
    Judge Gibbons. The vast majority of the losses were due to 
normal attrition. We did offer buyouts, voluntary separation 
incentive payments and early retirement in order to minimize 
forced downsizing. Had we not taken those two steps, the losses 
would not, in fact, have been mostly due to normal attrition.
    The result of that, of course, is that each of the 
judiciary entities and units affected by the staffing loss--
district courts, bankruptcy courts, probation, pretrial 
services offices, appellate courts--they are all operating at 
levels that are somewhat difficult. And, so, yes, it was hard 
to make the decision about the budget request with which we 
came forward. We have always tried to represent what the needs 
of the judiciary are. We have also tried to draw a line between 
the ebbs and flows of the appropriations process, of which the 
1,800-plus was on the extreme end of down, and something like 
sequestration, which is not related to what our needs are and 
is simply an indiscriminate way of attempting to reduce the 
deficit.
    And so we tried hard to be constructive, realistic in our 
work with the subcommittee but also represent the judiciary the 
best we could. And that seemed to us to be, at the end of the 
day, the best way to come forward with our request. We do not 
tell you that the loss of staff up to this point has been easy.
[GRAPHIC] [TIFF OMITTED] T0953A.102

    Mr. Serrano. Well, I thank you, we thank you for your 
testimony today, for your service.
    Are you a lawyer, Mr. Chairman?
    Mr. Crenshaw. I used to be.
    Mr. Serrano. Okay, I am not a lawyer, so a lot of----
    Mr. Crenshaw. It is hard to stop being a lawyer.
    Mr. Serrano. You are a lawmaker now.
    Mr. Crenshaw. Yes, I am a lawmaker now.
    Mr. Serrano. So a lot of this is fascinating to me, how the 
courts work, and throughout the years I have tried to learn 
more and more about it. I am not a lawyer, although I did play 
a judge on ``Law and Order'' once, and I do not know if that 
qualifies me. Season five, by the way, if you are interested. 
The name of the episode is ``The Guardian.''
    Interestingly enough, I have no idea what it is like to be 
a judge. But I tell you, the hardest part of playing a judge on 
TV was I tripped over the robe so many times. It was pretty 
embarrassing on the set. So they just shortened it, and I was 
fine after that.
    Judge Gibbons. Well, I will not share with you my most 
embarrassing moment as a judicial officer. I would share it 
with you privately, but I am not going to put it on the record 
in this hearing.
    Mr. Serrano. Well, I thank you for your service. Thank you 
so much.
    Mr. Crenshaw. Well, the committee thanks you, too, for 
being here today. And we thank you for the work that you do, 
and the fact that you are trying to do it more efficiently and 
more effectively is very important. So thank you very much.
    Judge Gibbons. Thank you very much for the opportunity to 
be here and to work with the subcommittee. We appreciate it.
    Mr. Crenshaw. The hearing is adjourned.

    [GRAPHIC] [TIFF OMITTED] T0953A.103
    
    [GRAPHIC] [TIFF OMITTED] T0953A.104
    
    [GRAPHIC] [TIFF OMITTED] T0953A.105
    
    [GRAPHIC] [TIFF OMITTED] T0953A.106
    
    [GRAPHIC] [TIFF OMITTED] T0953A.107
    
    [GRAPHIC] [TIFF OMITTED] T0953A.108
    


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Arberg, Kathy....................................................     1
Breyer, Stephen..................................................     1
Cline, Kevin.....................................................     1
Gibbons, J.S.....................................................   107
Hogan, T.F.......................................................   107
Keenan, Clifford.................................................    31
Kemp, Gary.......................................................     1
Kennedy, Anthony.................................................     1
Minear, Jeffrey..................................................     1
Satterfield, L.F.................................................    31
Talkin, Pamela...................................................     1
Ware, N.M........................................................    31
Washington, E.T..................................................    31

</pre></body></html>
